FOLLOW-UP AUDIT OF THE FEDERAL 

 BUREAU OF PRISONS’ EFFORTS TO 

  MANAGE INMATE HEALTH CARE


       U.S. Department of Justice 

     Office of the Inspector General 

              Audit Division 


           Audit Report 10-30 

               July 2010

FOLLOW-UP AUDIT OF THE FEDERAL BUREAU OF PRISONS’ 

     EFFORTS TO MANAGE INMATE HEALTH CARE

                              EXECUTIVE SUMMARY

       The Federal Bureau of Prisons (BOP) is responsible for delivering
medically necessary health care to inmates in accordance with proven
standards of care. To accomplish this task, the BOP has established policy
to hire appropriately trained, skilled, and credentialed staff. The policy
identifies lines of authority and accountability to provide for appropriate
supervision of health care practitioners. To verify and monitor its health
care practitioners’ knowledge and skills in providing health care, the BOP
implemented its policy for Health Care Provider Credential Verification,
Privileges, and Practice Agreement Program. During fiscal year (FY) 2009,
the BOP obligated about $865 million for inmate health care.

       In February 2008, the Office of the Inspector General (OIG)
completed an audit of the BOP’s efforts to manage inmate health care.
Among other issues, our 2008 audit found that the BOP allowed health care
providers to practice medicine without valid authorizations such as
privileges, practice agreements, or protocols.1 In addition, some providers
had not had their medical practices evaluated by a peer as required by BOP
policy. Allowing practitioners to provide medical care to inmates absent
current privileges, practice agreements, or protocols increases the risk that
the practitioners may provide medical services without having the
qualifications, knowledge, skills, and experience necessary to correctly
perform the services. Absent a current peer review, the BOP has a higher
risk of providers giving inadequate professional care to inmates. Also, if
inadequate professional care goes undetected, the providers may not receive
the training or supervision needed to improve the delivery of medical care.

OIG Audit Approach

       We initiated this audit to follow up on the BOP’s corrective actions on
the recommendations in our 2008 audit report related to maintaining current
privileges, practice agreements, protocols, and peer reviews. While
performing the follow-up audit, we also assessed the BOP’s use of National
Practitioner Data Bank (NPDB) reports to ensure health care providers have

       1
          Privileges and practice agreements authorize the specific clinical or dental services
that health care providers may provide to BOP inmates. Protocols contain guidance
approved by licensed independent practitioners that must be followed by practitioners other
than physicians; dentists; and mid-level practitioners such as graduate physician assistants,
nurse practitioners, and unlicensed medical graduates.

                                               i
not been involved in unethical or incompetent practices. The NPDB is
maintained by the Department of Health and Human Services and is a
central repository of information about: (1) malpractice payments made for
the benefit of physicians, dentists, and other health care practitioners;
(2) licensure actions taken by state medical boards and state boards of
dentistry against physicians and dentists; (3) professional review actions
primarily taken against physicians and dentists by hospitals and other health
care entities, including health maintenance organizations, group practices,
and professional societies; (4) actions taken by the Drug Enforcement
Administration; and (5) Medicare and Medicaid Exclusions. The BOP requires
its institutions to query the NPDB at the initial appointment of health care
providers, and no less than once every 2 years thereafter to identify adverse
actions by the providers.

      We performed audit work at BOP headquarters, where we interviewed
key officials including the BOP Medical Director, the Chief of the BOP’s Office
of Quality Management, and Program Review Division officials. We obtained
the BOP’s updated guidance on its credentialing and peer review processes,
as well as updated information on the number of BOP institutions, locations,
and inmates served.

      To determine the status of privileges, practice agreements, protocols,
peer reviews, and NPDB reports for BOP health care practitioners, we sent
survey questionnaires to all 115 BOP institutions at 93 BOP locations.2
Appendix I contains a more detailed description of our audit objectives,
scope, and methodology. Appendix III contains the survey questionnaire
that we sent to BOP institutions.

Results in Brief

       Our 2008 audit found that the BOP needed to ensure its practitioners
were properly authorized to provide medical care to inmates, and that peer
reviews were performed to ensure medical staff had adequate knowledge
and skill to perform medical tasks. We determined that, in response to
recommendations in our 2008 audit which related to BOP’s monitoring of its
medical staff, the BOP has: (1) conducted program reviews that included
verifying health care provider credentials; (2) directed each institution to
verify and assure its providers’ credentials and peer reviews were current;
and (3) provided additional training to its staff on the requirements for
credentialing health care providers and performing peer reviews.



      2
        Some BOP locations incorporate more than one BOP institution. For instance, the
BOP has two facilities at its Ashland, Kentucky, location – Ashland FCI and Ashland-CAMP.

                                            ii
          In this follow-up audit, we also tested whether the BOP’s corrective
  actions improved the BOP’s efforts to maintain current privileges, practice
  agreements, protocols, and peer reviews for its health care providers. As
  shown in Exhibit 1, we found that since our 2008 audit, the BOP had
  significantly reduced the percentage of practitioners without current
  privileges, practice agreements, and peer reviews.

         However, the percentage of practitioners without current protocols
  had increased. This increase occurred because nurses at the Butner, North
  Carolina, Federal Medical Center did not have protocols as required by the
  BOP’s guidelines. BOP officials told us the nurses did not need protocols
  because those nurses were under 24-hour supervision by licensed
  independent practitioners.

         When the nurses at Butner are excluded, the BOP’s percentage of
  practitioners without current protocols decreased from 5 percent to 4
  percent.

                          Exhibit 1: 2008 and 2010 Audit Results3

                                         2010 Audit       Percentage         2010 Audit   Percentage
                                           Results          Change             Results      Change
        Type of               2008        Including        Including          Excluding    Excluding
     Authorizing              Audit        Butner’s         Butner’s           Butner’s     Butner’s
       Document              Results        Nurses           Nurses             Nurses       Nurses
 Practitioners
 without Current
 Privileges                    11%            4%             -64%               4%          -64%
 Practitioners
 without a Current
 Practice Agreement            9%            <1%             -89%              <1%          -89%
 Practitioners
 without a Current
 Protocol                      5%             7%             +40%               4%          -20%
 Practitioners
 without a Current
 Peer Review                   48%           13%             -73%               13%         -73%
Source: Responses by BOP institution officials to OIG survey questionnaire


        While the BOP’s corrective actions resulted in significant
  improvements in its credentialing and peer review processes, additional
  improvements are needed to ensure that all of the BOP’s heath care
  providers are operating with current authorization documents and peer
  reviews. Allowing any practitioners to provide medical care to inmates
          3
           During the 2008 audit, the BOP institutions reported fewer practitioners that
  required privileges, practice agreements, protocols, and peer reviews than reported during
  the 2010 audit.

                                                    iii
without current privileges, practice agreements, or protocols increases the
risk that the practitioners may provide medical services without having the
qualifications, knowledge, skills, and experience necessary to correctly
perform the services.

       We also found that the BOP institutions maintained current NPDB
reports for 96 percent of its health care practitioners. We concluded that
BOP needs to take additional steps to ensure NPDB reports are obtained for
all practitioners. Without current NPDB reports for all its practitioners, the
BOP risks not identifying adverse actions against practitioners and employing
practitioners who are not suitable for providing proper health care for BOP
inmates.

      In this report, we make seven recommendations to assist the BOP in
ensuring that all health care providers have current privileges, practice
agreements, protocols, peer reviews, and NPDB reports, as applicable.

      The remaining sections of this Executive Summary provide a further
description of our audit findings.

Results of Our 2008 Audit

       Our 2008 audit found 134 practitioners who did not have current
privileges, practice agreements, or protocols as shown in the following
exhibit.

            Exhibit 2: BOP Medical Practitioners without Current

               Privileges, Practice Agreements, or Protocols


                                  Practitioners       Practitioners         Percent
              Type of              Requiring            Without             Without
           Authorizing            Authorizing         Authorizing         Authorizing
             Document              Document            Document            Document
       Privileges                      680                 72                11%
       Practice Agreement              466                 42                 9%
       Protocol                        390                 20                 5%
        Totals                       1,536                134                 9%
      Source: Responses by BOP institution officials to OIG survey questionnaire


       In our 2008 audit, we attributed the absence of current privileges,
practice agreements, or protocols to confusion that existed among BOP
officials as to which type of authorization health care providers should have.

      Our 2008 audit also found that 430 (48 percent) of the 891
practitioners who required peer reviews had not received a peer review
within the previous 2 years, as required by the BOP’s Program Statement on

                                              iv
Health Care Provider Credential Verification, Privileges, and Practice
Agreement Program. The BOP officials responsible for more than half of the
non-current peer reviews did not provide an explanation for the lack of
current peer reviews. However, the officials responsible for the remaining
non-current peer reviews cited the following reasons.

     	 The officials rely on peer reviewers from the contract providers’
        non-BOP hospital or medical facility to conduct the peer reviews.

     	 The officials believed that the peer review requirement did not
        apply to dental assistants, dental hygienists, or mid-level
        practitioners such as physician assistants and nurse practitioners.

     	 The officials relied on other types of performance reviews instead of
        doing the required peer reviews.

The BOP’s Actions in Response to our 2008 Audit

      In our 2008 audit, we made 11 recommendations regarding the BOP’s
provision of medical care for inmates, including the following 4
recommendations related to privileges, practice agreements, protocols, and
peer reviews.

     	 Ensure initial privileges, practice agreements, or protocols are
        established for all practitioners, as applicable.

     	 Ensure privileges, practice agreements, and protocols are
        revaluated and renewed in a timely manner.

     	 Ensure that practitioners are not allowed to practice medicine in
        BOP institutions without current privileges, practice agreements, or
        protocols.

     	 Ensure that peer reviews of all providers are performed within the
        prescribed time frames.

       To address these four recommendations, in June 2008 the BOP issued
guidance to its institutions reiterating policy requirements that all health
care providers have privileges, practice agreements, protocols, and peer
reviews. The BOP also planned to verify privileges, practice agreements,
and protocols on site through health services program reviews, Regional
Medical Director and Regional Health Service Administrator visits, and
Clinical Director peer reviews. The BOP required all clinical directors to
provide assurance to their respective Regional Medical Director by June 30,
                                      v
2008, that current privileges, practice agreements, or protocols were in
place for all practitioners, as applicable. In addition, the BOP provided
additional training to its institution staff to increase their awareness of the
credentialing and peer review requirements. Based on the BOP’s corrective
actions, we closed the four recommendations in July 2008.

Effect of the BOP’s Corrective Actions

        During this follow-up audit, we evaluated whether the BOP’s corrective
actions were effective in ensuring that all health care providers were
operating under current privileges, practice agreements, or protocols and
had received a current peer review, as applicable. We surveyed BOP officials
at all 115 BOP institutions to obtain the date of the latest privilege, practice
agreement, protocol, and peer review, as appropriate, for each health care
practitioner. We also asked BOP officials to provide documentation to
support the dates provided for the applicable authorizing documents and
peer reviews. In Exhibits 3 through 7, we compare the results of our
analyses of privileges, practice agreements, protocols, and peer reviews
from our 2008 audit and our 2010 follow-up audit.

      As illustrated in Exhibit 3, we found that the BOP significantly reduced
the percentage of practitioners without current privileges from 11 percent in
our 2008 audit to 4 percent in our current audit.

             Exhibit 3: Status of Privileges for BOP Practitioners


                           4%                       96%
        2010 Audit        38                        854

                           11%                89%
        2008 Audit         72                 608


                                         Not Current
                                         Current
      Source: Responses by BOP institution officials to OIG survey questionnaire


       We found that the BOP also significantly reduced the percentage of
practitioners without current practice agreements from 9 percent in our
2008 audit to less than 1 percent in our current audit as shown in Exhibit 4.




                                              vi
       Exhibit 4: Status of Practice Agreements for BOP Practitioners


                           <1%                       >99%
        2010 Audit        2                           558

                              9%                    91%
        2008 Audit         42                       424


                                         Not Current
                                         Current
      Source: Responses by BOP institution officials to OIG survey questionnaire


       The BOP’s percentage of practitioners without current protocols
increased from 5 percent in our 2008 audit to 7 percent in our current audit.
This increase occurred because the BOP medical center at Butner had 13
nurses without protocols. BOP officials told us these nurses did not need
protocols because supervision by licensed independent practitioners was
available 24 hours a day at this facility. We agree with the BOP’s
explanation because the protocols are written to guide the non-independent
practitioners on dealing with specific medical situations when independent
practitioners are not available to provide such guidance.

       However, the BOP’s current guidelines for protocols do not indicate
that protocols are not required for non-independent practitioners when
supervision is available 24 hours a day from licensed independent
practitioners. If the BOP changes its policy accordingly and the 13 nurses at
Butner are not counted as needing protocols, then the percentage of
practitioners without protocols would be 4 percent, or 1 percent less than we
found during our 2008 audit.

       The exhibit below demonstrates the status of protocols for BOP
Practitioners using the current guidelines, including the 13 nurses at Butner
as among the percentage of practitioners without required protocols.




                                              vii
             Exhibit 5: Status of Protocols for BOP Practitioners 

                          Including Butner’s Nurses 



                           7%                     93%
        2010 Audit        34                         450

                           5%                95%
        2008 Audit        20                370


                                         Not Current
                                         Current
      Source: Responses by BOP institution officials to OIG survey questionnaire


       The following exhibit demonstrates the status of protocols for BOP
Practitioners after excluding the 13 nurses at Butner from the requirement
to have protocols.

             Exhibit 6: Status of Protocols for BOP Practitioners 

                          Excluding Butner’s Nurses 



                           4%                     96%
        2010 Audit        21                           450


                          5%                95%
        2008 Audit        20                   370


                                         Not Current
                                         Current
      Source: Responses by BOP institution officials to OIG survey questionnaire


     As illustrated in Exhibit 7, the most significant reduction of the areas
we tested related to peer reviews. We found that the BOP significantly
reduced the percentage of practitioners without current peer reviews from
48 percent in our 2008 audit to 13 percent in our current audit.




                                              viii
           Exhibit 7: Status of Peer Reviews for BOP Practitioners


                           13%                        87%
        2010 Audit          162                      1080


                                  48%              52%
        2008 Audit                430                461


                                         Not Current
                                         Current
      Source: Responses by BOP institution officials to OIG survey questionnaire


        Although not part of the 2008 audit, in the survey we also asked BOP
officials to provide the date and supporting documentation for the latest
NPDB report obtained for each practitioner. We found that the BOP had
obtained current NPDB reports for 1,938 (96 percent) of the 2,010
practitioners who required one.

       During this audit, BOP officials told us that they were in the process of
revising the BOP’s Program Statement on Health Care Provider Credential
Verification, Privileges, and Practice Agreement Program to further clarify
the requirements of the program. The officials stated that they expect to
have a draft of the revised Program Statement completed by the end of
FY 2010, and a new publication by FY 2012. We concluded that in the
interim, the BOP should issue clarifying guidance to BOP institutions to
further reduce the number of practitioners without current privileges,
practice agreements, protocols, peer reviews, and NPDB reports.

Conclusion and Recommendations

       We found that since the 2008 audit, the BOP generally increased its
rate of compliance with the controls for monitoring its health care providers’
credentials by: (1) conducting program reviews that included verifying
health care provider credentials, (2) directing each institution to verify and
assure its practitioners’ credentials and peer reviews were current, and
(3) providing training to its staff on credentialing health care practitioners.
However, additional improvements are needed to help ensure that all
practitioners have current authorizing documents and peer reviews. BOP
officials recognize that their credentialing and peer review policy is not clear,
and the BOP is in the process of revising its Program Statement on Health
Care Provider Credential Verification, Privileges, and Practice Agreement
Program to ensure the requirements of the program are understood by its
staff.

                                              ix
      Allowing practitioners without current privileges, practice agreements,
or protocols to provide medical care to inmates increases the risk that the
practitioners may provide medical services without having the qualifications,
knowledge, skills, and experience necessary to correctly perform the
services. In addition, the BOP could be subjected to liability claims by
inmates if improper medical services are provided by these practitioners.

        In this report, we make seven recommendations to help the BOP
ensure that its health care practitioners have current privileges, practice
agreements, protocols, peer reviews, and NPDB reports. Five of the
recommendations relate to providing interim guidance to BOP institutions to
clarify the requirements for each of the five areas above. One
recommendation was made to ensure the BOP’s revised Program Statement
incorporates the requirements contained in the interim clarifying guidance.
A final recommendation was primarily made to ensure the steps followed
during the BOP’s program reviews of institutions are effective in identifying
practitioners without current privileges, practice agreements, protocols, peer
reviews, and NPDB reports.




                                      x
                                TABLE OF CONTENTS


                                                                                             Page

INTRODUCTION .............................................................................          1   

  Health Care Responsibilities............................................................          1   

  The Provision of Health Care Services ..............................................              2   

  Prior Audit ...................................................................................   3   

  OIG Audit Objectives and Approach .................................................               6   


FINDING AND RECOMMENDATIONS................................................ 8 


   IMPROVEMENTS IN THE BOP’S CREDENTIALING AND PEER 

   REVIEW PROCESSES .................................................................. 8 

   2008 Audit Results ........................................................................ 8 

   The BOP’s Response to Our 2008 Audit Recommendations .................. 10 

   The Effects of the BOP’s Corrective Actions on Improving the BOP’s 

      Processes for Granting Privileges, Practice Agreements, and 

      Protocols, and for Performing Peer Reviews .................................. 11 

   Program Reviews .......................................................................... 20 

   Institution Certification of Compliance .............................................. 22 

   National Practitioner Data Bank....................................................... 24 

   Conclusion ................................................................................... 26 

   Recommendations......................................................................... 27 


STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ...... 29 


STATEMENT ON INTERNAL CONTROLS............................................ 31 


ABBREVIATIONS ............................................................................ 32 


APPENDIX I – Audit Objectives, Scope, and Methodology ............... 33 


APPENDIX II – BOP Institutions and Inmates Housed as of 

  March 25, 2010 .......................................................................... 34 


APPENDIX III – OIG Survey Questionnaire Sent to BOP 

  Institutions ................................................................................ 40 


APPENDIX IV – The BOP’s Response to the Draft Audit Report ....... 44 


APPENDIX V – Office of the Inspector General, Audit Division,
  Analysis and Summary of Actions Necessary to Close the
  Report........................................................................................ 49 

                                    INTRODUCTION

      The Federal Bureau of Prisons (BOP) is responsible for confining
federal offenders in prisons and community-based facilities. As of March 25,
2010, the BOP housed 172,105 inmates in 115 BOP managed institutions at
93 locations. In addition, the BOP housed 38,279 inmates in privately
managed, contracted, or other facilities.4

       The BOP institutions include Federal Correctional Institutions, United
States Penitentiaries, Federal Prison Camps, Metropolitan Detention Centers,
Federal Medical Centers, Metropolitan Correctional Centers, Federal
Detention Centers, the United States Medical Center for Federal Prisoners,
and the Federal Transfer Center. When multiple institutions are co-located,
the group of institutions is referred to as a Federal Correctional Complex.
Some institutions are located within federal correctional complexes that
contain two or more institutions. Appendix II contains a list of the BOP
institutions.

Health Care Responsibilities

     As part of the BOP’s responsibility to house offenders in a safe and
humane manner, it seeks to deliver to its inmates medical care with
appropriately trained, skilled, and credentialed staff.

       According to BOP’s Program Statement on Health Services
Administration, the BOP’s responsibility for delivering health care to inmates
is divided among the BOP headquarters, regional offices, and local institution
officials.5

            Director of BOP: The Director has overall authority to provide for
             the care and treatment of persons within the BOP’s custody. The
             Director has delegated this authority to the Assistant Director,
             Health Services Division.

            Assistant Director, Health Services Division: The Assistant
             Director, Health Services Division, is responsible for directing and
             administering all activities related to the physical and psychiatric
             care of inmates. The Assistant Director has delegated this authority


        4
         This audit focused only on health care providers providing care to inmates housed
in Bureau of Prison facilities.
        5
            BOP Program Statement P6010.02, Health Services Administration, January 15,
2005.

                                              1

        as it pertains to clinical direction and administration to the BOP
        Medical Director.

     	 Medical Director: The Medical Director is the final health care
        authority for all clinical issues and is responsible for all health care
        delivered by BOP health care practitioners.

     	 Regional Health Services Administrators: The Regional Health
        Services Administrators in the BOP’s six regional offices are
        responsible for responding to health care problems at all institutions
        within their region. The Administrators also advise the Regional
        Director and Deputy Regional Director in all matters related to
        health care delivery.

     	 Institution Officials: The responsibility for the delivery of health
        care to inmates at the institution level is divided among various
        officials, staff, contractors, and others. Each institution has a
        Health Services Unit responsible for delivering health care to
        inmates. The organization of the unit varies among institutions
        depending upon security levels and missions, but each unit
        ordinarily has a Clinical Director and a Health Services
        Administrator who report to the Warden or Associate Warden. The
        Clinical Director is responsible for oversight of all clinical care
        provided at the institution. The Health Services Administrator
        implements and directs all administrative aspects of the Health
        Services Unit at the institution. Both the Clinical Director and the
        Health Services Administrator have responsibilities related to the
        supervision and direction of health services providers at the
        institution.

The Provision of Health Care Services

      The BOP provides health care services to inmates primarily through
in-house medical providers employed by the BOP or assigned to the BOP
from the Public Health Service and through contracted medical providers.
Our audit covered both in-house and contracted medical providers.

In-house Medical Providers

      The Health Services Units at each of the BOP's 115 institutions provide
routine, ambulatory medical care. These units provide care for patients with
moderate and severe illnesses, including hypertension and diabetes, as well
as care for patients with serious medical conditions, such as Human
Immunodeficiency Virus infection and Acquired Immunodeficiency

                                       2

Syndrome. Health Services Unit outpatient clinics provide diagnostic and
other medical support services for inmates needing urgent and ambulatory
care. The units are equipped with examination and treatment rooms,
radiology and laboratory areas, dental clinics, pharmacies, administrative
offices, and waiting areas. The units are staffed by a combination of BOP
health care employees and Public Health Service personnel consisting of
physicians, dentists, physician assistants, mid-level practitioners, nurse
practitioners, nurses, pharmacists, psychiatrists, laboratory technicians,
x-ray technicians, and administrative personnel. At each institution, the
Clinical Director directs the clinical care of inmates and is the privilege
granting authority; however, in institutions with a Credential Committee,
Primary Care Provider Teams, or more than one physician, the Clinical
Director may delegate this authority to another licensed independent
practitioner.

      As part of its internal health care network, the BOP operates several
medical referral centers that provide advanced care for inmates with chronic
or acute medical conditions. The centers provide hospital and other
specialized services to inmates, including full diagnostic and therapeutic
services and inpatient specialty consultative services. Inpatient services are
available only at medical referral centers. BOP medical personnel refer
inmates to the centers or an outside community care provider when the
inmates have health problems beyond the capability of the Health Services
Unit.

Contracted Medical Providers

      When the BOP's internal resources cannot fully meet inmates' health
care needs, the BOP awards comprehensive and individual contracts to
supplement its in-house medical services. Comprehensive contracts provide
a wide range of services and providers, while individual contracts usually
provide specific specialty services.

Prior Audit

      In February 2008, the Office of the Inspector General (OIG) completed
an audit of the BOP’s efforts to manage inmate health care.6 Our 2008 audit
examined the growth of inmate health care costs over the previous 7 years
and found that the BOP had kept this growth at a reasonable level compared
to national health care cost data reported by the Departments of Health and
Human Services and Labor. However, while the BOP had implemented cost
      6
         Department of Justice, Office of the Inspector General, The Federal Bureau of
Prisons Efforts to Manage Inmate Health Care, Audit Report Number 08-08 (February 2008).


                                           3

containment strategies over the previous several years to provide health
care to inmates in a more effective and efficient manner, it generally did not
maintain analytical data to assess the impact that individual initiatives have
had on health care costs.

      Our audit also found that BOP institutions did not always provide
recommended preventive medical services to inmates. The audit
determined that BOP institutions did not consistently provide inmates with
the medical services recommended by BOP guidelines. Not providing
appropriate medical services could lead to exacerbation of inmate medical
conditions, higher costs for health care, medical-related complaints and
lawsuits from inmates, and BOP liability for lack of adequate medical care.

      Additionally, we determined that the BOP allowed some health care
providers to practice medicine without valid authorizations. Allowing
practitioners to provide medical care to inmates without current privileges,
practice agreements, or protocols increases the risk that they may provide
medical services without having the qualifications, knowledge, skills, and
experience necessary to correctly perform the services.

      The OIG audit also found that 48 percent of health care providers did
not have their practices peer-reviewed to ensure the quality of their medical
care as required by BOP policy. Without a current peer review the BOP has
a higher risk of providers giving inadequate professional care to inmates.

      Prior OIG audits of BOP medical contracts had identified contract-
administration deficiencies in the review of health care costs, such as
inadequate review and verification of contractor invoices and inadequate
supporting documentation for billings. Subsequent to these audits, the BOP
took action to address individual deficiencies at the institutions audited.
However, our 2008 audit found that other BOP institutions still lacked
appropriate controls in these same areas, which indicated the existence of
systemic weaknesses that were not being addressed by the BOP.

       The BOP monitors its health care providers by performing program
reviews of institution operations, reviewing medical provider skills and
qualifications and providing authorization documents based on the review
results, and requiring institutions to accumulate and submit data on
health-related performance measures to BOP headquarters. In our 2008
audit, we determined that the BOP methods to accumulate and report
health-related performance measures were inconsistent, and that the data
was not analyzed to evaluate the performance of BOP institutions. While the
BOP had corrected deficiencies at the specific institutions where its program
reviews found weaknesses, it did not develop and issue guidance to correct

                                      4

systemic deficiencies found during the reviews. We concluded that the BOP
should issue guidance to correct systemic deficiencies identified through
program reviews.

       The OIG made 11 recommendations to help the BOP correct the
deficiencies found during the 2008 audit. The BOP agreed with the
recommendations and took corrective actions that included:

     	 awarding a contract for adjudicating medical claims at one of the
        BOP’s medical facilities, and making plans to implement the claims
        adjudication process BOP-wide and use data provided by the
        contractor to conduct cost-analyses of medical claims;

     	 revising its Clinical Practice Guidelines and scheduling other
        guidelines for revision in 2009 and 2010;

     	 issuing guidance to institutions underscoring the importance of the
        Clinical Practice Guidelines;

     	 issuing guidance to BOP Health Service Administrators, Business
        Administrators, and Contracting Officers regarding medical contract
        administration procedures;

     	 issuing guidance to wardens and clinical directors reiterating policy
        requirements that all health care providers have privileges, practice
        agreements, and protocols in place;

     	 issuing guidance to wardens and clinical directors reiterating the
        requirements for performing peer reviews of health care providers;
        and

     	 providing on-line training to advise and educate clinicians and
        administrators regarding findings in the BOP’s Program Summary
        Report.

      Based on the BOP’s actions, we closed 10 of the 11 recommendations.
We continue to follow-up with the BOP on the remaining open
recommendation that the BOP establish procedures for collecting and
evaluating data for each current and future health care initiative to assess
whether individual initiatives are cost-effective and producing the desired
results. Once we receive acceptable documentation showing the BOP has
completed a cost benefit analysis to determine if bill adjudication provides
savings to the BOP regarding medical billing, we can close the remaining
recommendation.

                                      5

OIG Audit Objectives and Approach

      The OIG initiated this follow-up audit to determine BOP’s progress in
implementing the four recommendations in our 2008 report relating to the
credentialing and peer review process for BOP health care providers. The
four recommendations were:

     1. Ensure initial privileges, practice agreements, and protocols are
        established for all practitioners, as applicable.

     2. Ensure privileges, practice agreements, and protocols are
        reevaluated and renewed in a timely manner.

     3. Ensure that practitioners are not allowed to practice medicine in
        BOP institutions without current privileges, practice agreements, or
        protocols.

     4. Ensure that peer reviews of all providers are performed within the
        prescribed time frames.

       We decided to follow up on these recommendations because
deficiencies in the credentialing and peer review of BOP’s health care
providers could result in BOP using practitioners who lack the necessary
qualifications or skills to deliver appropriate medical care.

       In addition to following up on four recommendations from our 2008
audit, we also evaluated whether the BOP was obtaining current National
Practitioner Data Bank (NPDB) reports for its health care providers to ensure
the providers have not been involved in unethical or incompetent practices.
The NPDB was established by the Health Care Quality Improvement Act of
1986 to protect the public by restricting the ability of unethical or
incompetent practitioners to move from state to state without disclosure or
discovery of previously damaging or incompetent performance. The NPDB is
a central repository of information about: (1) malpractice payments made
for the benefit of physicians, dentists, and other health care practitioners;
(2) licensure actions taken by state medical boards and state boards of
dentistry against physicians and dentists; (3) professional review actions
primarily taken against physicians and dentists by hospitals and other health
care entities, including health maintenance organizations, group practices,
and professional societies; (4) actions taken by the Drug Enforcement
Administration; and (5) Medicare/Medicaid Exclusions Information is
collected from private and government entities, including the Armed Forces,
located in the 50 states and all other areas under U.S. jurisdiction. The BOP

                                      6

is required to query the NPDB at initial appointment of health care providers,
and no less than once every 2 years to identify adverse actions by its health
care providers.

      In the Finding and Recommendations section of this report, we discuss
in detail the corrective actions the BOP took in response to the four
credentialing and peer review recommendations, and the results of our
testing to determine whether those actions improved the BOP’s credentialing
and peer reviewing of health care providers. In addition, we discuss the
BOP’s actions to identify adverse actions by its health care providers through
current queries of the NPDB.




                                      7

               FINDING AND RECOMMENDATIONS

      IMPROVEMENTS IN THE BOP’S CREDENTIALING AND PEER
      REVIEW PROCESSES

      This follow-up audit found that the BOP had implemented
      corrective actions on the four recommendations we made in our
      2008 report to strengthen the BOP’s credentialing and peer
      review processes for its health care providers. These corrective
      actions significantly increased the percentage of BOP health care
      providers with current privileges, practice agreements, and peer
      reviews, while the percentage for protocols remained about the
      same. However, we found that some BOP health care providers
      were not operating under current privileges, practice
      agreements, or protocols, as applicable, and that current peer
      reviews had not been performed for some providers. While the
      BOP’s program reviews of institution health care practices
      identified instances where privileges or practice agreements
      were not current, the reviews failed to identify many of the non-
      current privileges, practice agreements, and protocols that we
      found existed at the time BOP conducted its reviews. In
      addition, we found that current NPDB reports were not
      maintained for some BOP health care providers and BOP’s
      program reviews failed to identify any of the non-current NPDB
      reports.

2008 Audit Results

     Our 2008 audit found that while the BOP used numerous mechanisms
to monitor its health care providers, some of its health care providers did not
have current privileges, practice agreements, protocols, and peer reviews.

       The BOP’s Program Statement on Health Care Provider Credential
Verification, Privileges, and Practice Agreement Program provides that the
BOP: (1) grants clinical privileges to licensed independent practitioners
based on the practitioner’s qualifications, knowledge, skills, and experience;
(2) establishes practice agreements between its licensed independent
practitioners and its non-independent practitioners, such as nurse




                                      8

practitioners and physician assistants;7 (3) establishes protocols that must
be followed by other health care providers, such as clinical nurses and
emergency medical technicians; and (4) performs peer reviews of all
providers who function under clinical privileges and practice agreements.8
Further, this program statement prohibits independent practitioners from
practicing medicine within the BOP until they have been granted privileges to
do so by an authorized BOP official. It also prohibits non-independent
practitioners from providing health care within the BOP until a practice
agreement has been established. The program statement requires the BOP’s
other health care providers, such as clinical nurses and emergency medical
technicians, to work under protocols approved by licensed independent
practitioners. Our 2008 audit found 134 practitioners who did not have
current privileges, practice agreements, or protocols as shown in the
following exhibit.

               Exhibit 8: BOP Medical Practitioners without Current

                  Privileges, Practice Agreements, or Protocols


                                   Practitioners       Practitioners         Percent
                  Type of           Requiring            Without             Without
               Authorizing         Authorizing         Authorizing         Authorizing
                 Document           Document            Document            Document
           Privileges                   680                 72                11%
           Practice Agreement           466                 42                 9%
           Protocol                     390                 20                 5%
            Totals                    1,536                134                 9%
       Source: Responses by BOP institution officials to OIG survey questionnaire


       Based on the responses we received from BOP institution officials
regarding why the practitioners did not have current privileges, practice
agreements, or protocols, we believe that confusion existed among the
officials as to which type of authorization different health care providers
should have. Allowing practitioners to provide medical care to inmates
without current privileges, practice agreements, or protocols increases the
risk that the practitioners may provide medical services without having the

       7
           Licensed independent practitioners are medical providers authorized by a current
and valid state license to independently practice medicine, dentistry, optometry, or
podiatry. Non-independent practitioners are graduate physician assistants (certified or non-
certified), dental assistants, dental hygienists, nurse practitioners, and unlicensed medical
graduates who must be supervised by a physician while providing medical care or be
operating under a protocol approved by a licensed independent practitioner. A nurse
practitioner is a registered nurse who has completed advanced education and training in the
diagnosis and management of common medical conditions, including chronic illnesses.
Unlike clinical nurses, nurse practitioners can prescribe medications.
       8
          BOP Program Statement P6027.01, Health Care Provider Credential Verification,
Privileges, and Practice Agreement Program, January 15, 2005.

                                                9

qualifications, knowledge, skills, and experience necessary to correctly
perform the services.

      Our 2008 audit also found that 430 (48 percent) of the 891
practitioners who required peer reviews had not received a peer review
within the previous 2 years. The officials responsible for more than half the
non-current peer reviews did not provide an explanation for the lack of peer
reviews. The officials responsible for the remaining non-current peer
reviews cited the following reasons.

      	 The officials rely on peer reviewers from the contract providers’
         non-BOP hospital or medical facility to conduct peer reviews.

      	 The officials mistakenly believed that the peer review requirement
         did not apply to dental assistants, dental hygienists, or mid-level
         practitioners such as physician assistants and nurse practitioners.

      	 The officials relied on other types of performance reviews instead of
         doing the required peer reviews.

      Without current peer reviews, the BOP has a higher risk of not
detecting circumstances where providers may not be giving adequate
medical care to inmates. If inadequate professional care goes undetected,
the provider may not receive the training or supervision needed to improve
the delivery of medical care. Moreover, inadequate care by a practitioner
without a current peer review also increases the risk of BOP liability arising
from any formal complaints or medical malpractice suits filed by inmates.

The BOP’s Response to Our 2008 Audit Recommendations

      Our 2008 audit made four recommendations to strengthen the BOP’s
controls for monitoring its health care providers’ credentials. Our
recommendations and the steps that the BOP took to implement those
recommendations are explained below.

     As noted above, three of the four recommendations related to
improving the BOP’s process for granting privileges, practice agreements,
and protocols to health care providers:

      	 Ensure initial privileges, practice agreements, or protocols are
         established for all practitioners, as applicable.



                                      10 

      	 Ensure privileges, practice agreements, and protocols are
         reevaluated and renewed in a timely manner.

      	 Ensure that practitioners are not allowed to practice medicine in
         BOP institutions without current privileges, practice agreements, or
         protocols.

       To address these recommendations, on June 4, 2008, the BOP issued
guidance to its wardens and clinical directors reiterating policy requirements
that all health care providers have privileges, practice agreements, and
protocols in place. In addition, the BOP planned to verify privileges, practice
agreements, and protocols on site through health services program reviews,
Regional Medical Director and Regional Health Service Administrator visits,
and Clinical Director peer reviews. The guidance required that all clinical
directors provide assurance to their respective Regional Medical Director by
June 30, 2008, that their clinicians have privileges, practice agreements, or
protocols in place. In addition, the BOP provided additional training to its
institution staff to increase their awareness of the credentialing
requirements. Based on the BOP’s corrective actions, we closed these
recommendations in July 2008.

       The remaining recommendation was for the BOP to ensure that peer
reviews of all providers are performed within the prescribed timeframes. To
address this recommendation, on June 4, 2008, the BOP issued guidance to
its wardens and clinical directors explaining that all health care providers
who are privileged must have at least one external peer review conducted
every 2 years. The guidance also reiterated that providers working under
practice agreements must have a peer review conducted at least every 2
years by a peer at the facility. The guidance also stated that the Regional
Medical Directors would conduct external peer reviews for all licensed
independent practitioners in conjunction with the scheduled Clinical Director
peer reviews. In addition, the BOP provided additional training to its
institution staff to increase their awareness of the peer review requirements.
Based on the BOP’s corrective actions, we closed this recommendation in
July 2008.

The Effects of the BOP’s Corrective Actions on Improving the BOP’s
Processes for Granting Privileges, Practice Agreements, and
Protocols, and for Performing Peer Reviews

       In this audit, we evaluated whether the BOP’s corrective actions were
effective in ensuring that all health care providers were operating under
current privileges, practice agreements, and protocols, as applicable, and
had received a current peer review, as applicable. To perform this

                                      11 

evaluation, we sent a survey questionnaire to all 115 BOP institutions at 93
BOP locations. Appendix III contains the survey questionnaire that we sent
to BOP institutions. In the survey, we asked BOP officials to provide us the
date of the latest privilege, practice agreement, or protocol, as appropriate,
for each health care practitioner providing medical care at the facility or
through tele-health.9 We also asked the BOP officials to provide a copy of
the applicable authorizing document as support for the date the applicable
authority was granted. We analyzed the survey results based on guidelines
established by the BOP in its Program Statement on Health Care Provider
Credential Verification, Privileges, and Practice Agreement Program.

       The BOP grants clinical privileges to its in-house and contracted
licensed independent practitioners. Clinical privileges are the specific duties
that a health care provider is allowed to provide to BOP inmates. The
following authorities are assigned to grant institution-specific clinical
privileges.

       	 The BOP Medical Director grants privileges for institution physicians
          designated as the Clinical Director, including a physician who is
          appointed as Acting Clinical Director while the permanent position is
          vacant. The BOP Medical Director also grants privileges for Clinical
          Specialty Consultants and Chief Dental Officers. The Medical
          Director delegated privilege-granting authority for the Chief of
          Psychiatry at BOP institutions to the BOP’s Chief Psychiatrist.

       	 The institution’s Clinical Director grants privileges for other licensed
          independent practitioners who deliver medical health care at the
          institution, including contractors, consultants, and those involved in
          tele-health.

       	 The BOP Chief Dental Officer grants privileges for all institution
          Chief Dental Officers.

       	 The institution Chief Dental Officer grants privileges for institution
          dentists.

      BOP policy states that clinical privileges can be granted for a period of
not more than 2 years, and that newly employed physicians should be
granted privileges for a period of 1 year. Independent practitioners are



       9
         Tele-health is a method of providing health care from a remote location using
technology such as video conferencing modified to include peripheral devices that produce
images of diagnostic quality.

                                            12 

prohibited from practicing medicine within the BOP until they have been
granted privileges to do so by an authorized BOP official.

      The individual BOP institutions establish practice agreements between
licensed independent practitioners and non-independent practitioners.
Practice agreements delegate specific clinical or dental duties to
non-independent practitioners under a licensed independent practitioner’s
supervision and are valid for no more than 2 years. Non-independent
practitioners include graduate physician assistants, nurse practitioners, and
unlicensed medical graduates who must be directly supervised by a licensed
independent practitioner. BOP policy prohibits non-independent
practitioners from providing health care within the BOP until a practice
agreement has been established. The BOP’s other health care providers,
such as clinical nurses and emergency medical technicians, must work under
protocols approved by licensed independent practitioners when they are not
being directly supervised by the licensed practitioners.

      BOP policy requires that health care providers who are privileged or
are working under a practice agreement must have at least one peer review
every 2 years. A peer is defined as another provider in the same discipline
(physician, dentist, mid-level practitioner, or others) who has firsthand
knowledge of the provider’s clinical performance. Using a sample of the
provider’s primary patient load, the peer reviewer should evaluate the
professional care the provider has given and comment on the provider’s:

        actual clinical performance;

        appropriate utilization of resources;

        participation in, and results of, performance improvement activity;

        clinical judgment; and

        technical skills.

       Based on the survey responses and the supporting documentation
provided to us by the BOP institutions, we concluded that the BOP’s
corrective actions to the recommendations we made in 2008 resulted in
significant improvements in the numbers of BOP medical staff with current
privileges, practice agreements, and peer reviews as shown in the following
exhibit.




                                        13 

                     Exhibit 9: 2008 and 2010 Audit Results

                                               2008           2010
            Type of Authorizing                Audit          Audit       Percentage
                 Document                     Results        Results        Change
        Practitioners
        without Current Privileges              11%            4%            -64%
        Practitioners without a
        Current Practice Agreement               9%           <1%            -89%
        Practitioners
        without a Current Protocol               5%            7%            +40%
        Practitioners without a
        Current Peer Review                     48%            13%           -73%
       Source: Responses by BOP institution officials to OIG survey questionnaires


Privileges

       As shown in Exhibit 9, the BOP reduced the percentage of practitioners
without current privileges from 11 percent in our 2008 audit to 4 percent in
our current audit. Based on data provided by the BOP during the 2008
audit, 72 of the 680 practitioners who required privileges were not operating
under current privileges. Based on the BOP supplied data during this
follow-up audit, 38 of 892 practitioners were not operating under current
privileges. In addition, we found that one newly hired practitioner was
granted privileges for a 2-year period, but the BOP guidance requires that
newly hired practitioners be granted privileges for only a 1-year period.

       Only one institution official provided a reason for why a practitioner’s
privilege was not current. The official explained that the privilege was late
because the practitioner was on extended sick leave and had not returned to
duty. The official commented that the practitioner’s privilege would be
completed upon his return to work.

       During our testing of privileges, we observed that other health care
providers, such as nurses, pharmacists, and emergency medical technicians
were granted privilege type documents giving them authority to perform
medical services. These health care providers had not used either form that
is required to request clinical privileges – the “Application for Appointment to
Medical Staff form BP-S601.63, or the “Application for Dental Privileges”
form BP-S603.063. While the BOP indicated on the granting documents that
the practitioners were being given privileges, the documents appeared to be
practice agreements or protocols instead of privilege granting documents.
BOP policy states that only licensed independent practitioners will apply for
and be granted clinical privileges. To use a document with the term
privilege for a practitioner who is not a licensed independent practitioner
could possibly lead to a misunderstanding of the authority granted the

                                              14 

practitioner. Therefore, it is important that BOP officials understand the
term privilege and do not describe practice agreements or protocols as
privileges.

Practice Agreements

      As shown in Exhibit 9, the BOP reduced the percentage of practitioners
without current practice agreements from 9 percent in our 2008 audit to less
than 1 percent in our current audit. Based on data provided by the BOP
during the 2008 audit, 42 of the 466 practitioners who required practice
agreements were not operating under current practice agreements. Based
on the BOP supplied data during this follow-up audit, 2 of 560 practitioners
were not operating under current practice agreements. Institution officials
did not provide an explanation for why the practitioners did not have current
practice agreements.

Protocols

      As shown in Exhibit 9, the percentage of practitioners without current
protocols increased from 5 percent in our 2008 audit to 7 percent in our
current audit. Based on data provided by the BOP during the 2008 audit, 20
of the 390 practitioners who required protocols did not have them. Based on
the BOP supplied data during this follow-up audit, 34 of 484 practitioners did
not have approved protocols. Of the 34 practitioners without approved
protocols, 13 were for nurses at the Federal Medical Center in Butner,
North Carolina. According to BOP officials, protocols are for use by
non-independent practitioners during emergency and after-hour situations
when a licensed independent practitioner may not be there to supervise the
non-independent practitioner. The BOP officials stated that since the
medical center at Butner is a facility staffed with licensed independent
practitioners 24 hours a day, then protocols are not necessary or used for
non-independent practitioners at the medical center. If the 13 nurses at the
Butner Medical Center are removed from consideration, then the percentage
of practitioners without protocols drops to 4 percent (21 of 471), and would
be a 1 percent reduction from the 2008 audit.




                                      15 

              Exhibit 10: 2008 and 2010 Audit Results for Protocols

                                    2010 Audit      Percentage       2010 Audit   Percentage
                                      Results         Change           Results      Change
     Type of             2008        Including       Including        Excluding    Excluding
   Authorizing           Audit        Butner’s        Butner’s         Butner’s     Butner’s
    Document            Results        Nurses          Nurses           Nurses       Nurses
 Practitioners
 without a
 Current Protocol         5%             7%             +40%              4%        -20%
Source: Responses by BOP institution officials to OIG survey questionnaires


       The BOP’s Program Statement on Health Care Provider Credential
Verification, Privileges, and Practice Agreement Program does not indicate
that protocols are only required for emergency or after-hour situations
where non-independent practitioners are not under the supervision of
licensed independent practitioners. Instead, the program statement
indicates that health care providers, such as clinical nurses, emergency
medical technicians, or any others that a local governing body deems
appropriate, must work under guidance of licensed independent practitioner
approved protocols while delivering health care inside the institution. If the
BOP Medical Director agrees that protocols are not necessary at medical
centers where licensed independent practitioners are on staff 24 hours a day
to supervise the non-independent practitioners, then the BOP needs to
revise its Program Statement on Health Care Provider Credential Verification,
Privileges, and Practice Agreement Program to reflect this policy.

Peer Reviews

      As shown in Exhibit 9, the BOP reduced the percentage of practitioners
without current peer reviews from 48 percent in our 2008 audit to 13
percent in our current audit. Based on data provided by the BOP during the
2008 audit, 430 of the 891 practitioners who required peer reviews had not
had a current peer review performed. Based on the BOP supplied data
during this follow-up audit, there were 1,408 practitioners who required peer
reviews every 2 years. Of the 1,408 practitioners, 152 had not been with
the BOP for at least 2 years, and therefore did not yet require a peer review.
We could not determine if 14 additional practitioners required a peer review
because the BOP did not provide us the practitioners’ employment dates.
For the remaining 1,242 practitioners, we found that 162 (13 percent) had
not received a current peer review. For 141 of these 162 practitioners, the
BOP provided no data or documentation to indicate that a peer review had
been performed.

       Of the 162 providers who had not received a current peer review, BOP
officials identified 77 of the practitioners as contract employees. The
                                                16 

remaining 85 we refer to as BOP staff, but may also include some
contractors.10 For the BOP staff, BOP institution officials responsible for
more than half of the non-current peer reviews did not provide an
explanation. The officials responsible for the remaining non-current peer
reviews cited the following reasons:

       	 a record of the peer reviews was discarded after the institution’s
          Program Review was completed;

       	 peer review was pending;

       	 peer review was not required because the practitioner is functioning
          in an administrative position as Health Services Administrator,
          Infectious Disease Coordinator, or Improving Organization
          Performance Coordinator, but the position requires that the
          practitioner be granted a practice agreement; and

       	 peer review was not performed, but a quarterly performance
          evaluation for the dental hygienist was completed.

      Some institution officials provided peer review dates on the survey
spreadsheet, but did not provide evidence showing that the peer reviews
were completed. Without such evidence, we did not count these peer
reviews as completed.

      For the 77 contract employees, BOP officials responsible for
maintaining the credential portfolios did not provide sufficient evidence to
indicate that a peer review had been performed. The BOP officials
responded to the column for the date of the latest peer review by:
(1) recording N/A for Not Applicable, (2) drawing a line through the column,
or (3) leaving the column blank.

      BOP policy requires evidence of periodic peer review for contractors.
However, BOP officials at the institutions and the BOP Central Office
explained to us that one of the primary reasons for the lack of peer reviews
for contract employees was that the hospitals where the practitioners
worked would not release the information due to confidentiality concerns. In
an attempt to obtain the contractor’s peer reviews we received the following
types of documents or responses.




       10
           Some institutions did not identify contract personnel. Therefore, we were unable
to differentiate between BOP staff and contract staff.

                                            17 

         The BOP institution provided an insert of bylaws from the contract
          hospital that stated peer review functions are contained in the
          credentialing policy.

         BOP officials told us that they did not have a copy of the peer
          review information for the contract employee because the private
          hospital that performed the peer review would not release the
          information to other institutions, including the BOP.

      	 BOP officials stated that the practitioner has a solo practice and did
         not get a peer review by a practitioner from another office.

      	 BOP officials voiced concern that some BOP clinical directors had
         not been completing peer reviews.

      	 BOP officials provided us letters of reference in place of documents
         indicating a peer review had been performed.

       We observed that clinical directors at some BOP institutions conducted
peer reviews of the institution’s contract physicians. However, at other
institutions, the clinical directors relied on the contractor facility for peer
reviews of contract staff and therefore could not provide documentation that
peer reviews had been performed for contract physicians.

      While the BOP has made significant improvements with peer reviews
since our initial audit, it is important that BOP officials obtain evidence that
peer reviews are performed for all health care providers, including contract
providers, and that evidence is maintained in the providers’ credential
portfolios to show the peer reviews were completed. As a result of the
comments and actions listed above, we believe that institution officials
remain unsure of who should have a peer review, what constitutes a peer
review, and what documentation should be maintained for peer reviews in
the credential portfolio.

       Peer reviews provide the assurance that a practitioner has the
knowledge and skill to conduct medical services. BOP’s Chief, Office of
Quality Management told us that all licensed independent practitioners who
work for a medical facility accredited by the Joint Commission for
Accreditation of Healthcare Organizations (JCAHO) are required to have a
peer review. The official stated that we could be sure that if a contract
physician has been granted privileges and is from a JCAHO accredited
hospital, that the physician has had a peer review. The official further stated
that if a medical facility is JCAHO accredited, a copy of that medical facility’s
accreditation report should be maintained at the institution. We did not test

                                       18 

whether the institutions’ contract physicians were from JCAHO approved
hospitals or medical groups, or whether the institutions maintained a copy of
the JCAHO accredited medical facility reports.

        In our judgment, such tests would not provide reliable evidence that
peer reviews were completed for the institutions’ contracted physicians.
BOP does not require that contract providers come from JCAHO accredited
facilities. Moreover, even if the contractor is from a JCAHO accredited
facility, it is still possible that providers are not in compliance with the
JCAHO peer review policy. The BOP’s Program Statement on Health Care
Provider Credential Verification, Privileges, and Practice Agreement Program
requires that all practitioners operating under privileges or practice
agreements have peer reviews and that evidence of such peer reviews be
maintained in the practitioner’s credentialing portfolio.

      BOP officials told us that the policy on peer reviews is outdated. The
BOP is currently in the process of updating its Program Statement on Health
Care Provider Credential Verification, Privileges, and Practice Agreement
Program to clarify the requirements of the credentialing and peer review
processes. For example, the BOP intends to include a sample peer review
template for use when conducting peer reviews. BOP conducted a pilot with
the sample template at the Regional Medical Director level and found it to be
successful. We believe the sample template for staff peer reviews will help
both the BOP staff and contract physicians with the process. Officials are
currently drafting the revised policy and hope to have a completed draft by
the end of FY 2010, and a new publication by FY 2012.

       In another initiative to clarify peer reviews, the Chief, Office of Quality
Management told us that a national wavier to the policy requiring
non-independent practitioners to have a peer review has been submitted
though the Medical Director’s office to the President of the union. The
official stated that the JCAHO does not require peer reviews for these
individuals, and therefore, BOP is requesting that this requirement be
excluded until new policy is published. If the JCAHO does not require these
practitioners to have peer reviews and the union agrees to the policy waiver,
then we agree that the BOP should not require the peer reviews and the BOP
should revise its Program Statement on Health Care Provider Credential
Verification, Privileges, and Practice Agreement Program to eliminate this
requirement. Mid-level providers and dental hygienists accounted for 32
percent of the practitioners who did not have a current peer review.




                                       19 

Program Reviews

       BOP’s Program Statement on Management Control and Program
Review Manual requires that the BOP’s Program Review Division perform a
comprehensive review of each program or operation at each BOP institution
in accordance with published program review guidelines.11 The Program
Review Division monitors health care providers through its program reviews
conducted of institution Health Services Units. The program reviews are
generally conducted once every 3 years, or more frequently if the reviews
identify overall performance that is less than a certain level. Program
Review Guideline G6000I.05 for Program Area: Health Services provides the
review steps for the Program Review Division to complete when performing
a program review of the health services function at a BOP institution,
including the following specific steps to verify the credentials of health care
providers.

      	 Review all staff and contract credential files for 10 licensed
         independent practitioners to determine if:

            a. the license has been verified as current, valid, and
               unrestricted;

            b. documentation of professional education has been verified;

            c.	 post-graduate training has been verified;

            d. all past and pending actions taken against a practitioner’s
               license or registration, and any malpractice history have been
               documented; and

            e. NPDB queries have been verified as initiated, current, and
               renewed every 2 years.

      	 Using the same files from above, review 10 staff and contract
         credential files for licensed independent practitioners (20 at
         complexes) to determine if peer reviews have been completed and
         clinical privileges have been granted and approved every 2 years.

      	 Review 10 staff and contract mid-level practitioner, dental
         hygienist, and dental assistant credential files (20 at complexes) to
         determine if the practitioners’ peer reviews have been completed,

      11
         BOP Program Statement P1210.23, Management Control and Program Review
Manual, August 21, 2002.

                                       20 

        and practice agreements are complete, accurate, and renewed
        every 2 years.

     	 Review 10 medical records (20 at complexes) of after-hours
        encounters performed by registered nurses or emergency medical
        technicians to determine if performance is within the scope of
        individual licensure/certification and that emergencies are covered
        by protocols approved by a licensed independent practitioner.

       During FYs 2008 and 2009, the Program Review Division conducted
program reviews of health care practices at 66 BOP institutions. We
reviewed the resulting reports and determined that the program reviews
identified some instances of non-current privileges and practice agreements.
However, as shown below, the reviews did not identify deficiencies that we
found existed at the time of the program reviews.

     	 We found 38 instances where privileges were not current at 17 BOP
        institutions. Only 1 of the 66 program reviews conducted by the
        BOP identified an issue with privileges not being current. For 12 of
        the 17 institutions where we found privileges that were not current,
        the non-current privileges existed at the time of the program
        reviews, but were not detected by the program reviews.

     	 We found two instances where practice agreements were not
        current at two BOP institutions. Six of the 66 program reviews
        identified an issue with practice agreements not being current.
        However, for the two institutions where we found practice
        agreements that were not current, the non-current practice
        agreements existed at the time of the program reviews, but were
        not detected by the program reviews.

     	 We found 34 instances where protocols were not current at 11 BOP
        institutions. However, 13 of the 34 instances were for the Butner
        Medical Center and as discussed previously, the BOP officials
        believed these 13 nurses did not need protocols because licensed
        independent practitioners were on staff 24 hours a day to supervise
        their work. None of the 66 program reviews identified an issue with
        protocols not being current. Excluding Butner, for 5 of the
        remaining 10 institutions where we found protocols that were not
        current, the non-current protocols existed at the time of the
        program reviews, but were not detected by the program reviews.

     The most likely reason that the program reviews did not detect the
non-current privileges, practice agreements, and protocols that we identified

                                     21 

is because the program reviews looked at data for only a sample of
practitioners while we reviewed data for all practitioners.

Institution Certification of Compliance

      On June 4, 2008, the BOP issued a directive to its wardens and clinical
directors reiterating that all providers, whether BOP, Public Health Service,
or consultants, are to have current clinical privileges at all times when
providing patient care. To ensure that institutions complied with this policy,
the directive required that all clinical privileges, practice agreements, and
protocols be reviewed on site through health services program reviews,
Regional Medical Director and Regional Health Service Administrator visits,
and Clinical Director peer reviews. The directive further instructed clinical
directors to provide assurance of compliance to their respective Regional
Medical Directors by June 30, 2008.

       For this follow-up audit, we tested the institutions’ compliance with the
June 4, 2008 directive. In the survey questionnaire we sent to the 93 BOP
institution locations, we asked the following question.

      Did you provide assurance to your Regional Medical Director by
      June 30, 2008, stating that your institution is in compliance
      with the June 4, 2008, directive requiring that all clinicians
      have privileges, practice agreements, or protocols in place to
      practice medicine?

       If the institution Clinical Director responded “Yes,” we asked for a copy
of the documentation provided to the Regional Medical Director assuring the
institution’s compliance. If the Clinical Director responded “No”, or “N/A” for
Not Applicable, we asked for an explanation. As shown in Exhibit 11, 73 of
the 93 institutions indicated that they had provided the required assurance
of compliance to the Medical Director by June 30, 2008.




                                      22 

             Exhibit 11: Institution Responses to the Question
              “Did you provide assurance of compliance to the
                     Medical Director by June 30, 2008”


                                                            Yes
                                                    2
                                        15
                                                            No
                                                    2
                                                        1
                                                            Not
                                                            Applicable
                                                            Unknown
                              73

                                                            Did Not
                                                            Answer

                Source: Responses by BOP institution officials to OIG
                        survey questionnaire


      For the 20 institutions that responded No, Not Applicable, Unknown, or
that did not answer, no explanations were provided. Of the 73 institutions
that answered “Yes,” only 27 provided documentation to support that they
provided assurance to the Medical Director by the June 30, 2008, deadline.

       We attempted to obtain copies of the assurance memoranda submitted
by the institutions but learned that the institutions were not required to keep
them. All six Regional Medical Directors reported their region’s compliance
with the directive to the BOP’s Central Office. The BOP’s Office of Quality
Management maintained each region’s assurance memorandum. A BOP
official told us that each Regional Medical Director reported that all
institutions in their region were in compliance. We obtained the assurance
memoranda for five of the six regions (South Central Region, Southeast
Region, Western Region, Mid-Atlantic Region, and the Northeast Region).
The North Central Region’s memorandum was not readily available.
However, in a March 9, 2010, memorandum to us, the North Central
Region’s Medical Director stated that on or about July 9, 2008, he received
the last of the certification memoranda from the institutions in his region,
and that he recalled sending an electronic mail confirmation to the Central
Office.

      We analyzed the results of our testing of the institutions’ compliance
with maintaining current privileges, practice agreements, and protocols to
gauge whether all the institutions were in compliance as certified by the
Regional Medical Directors. Our analyses identified eight BOP institutions,
spread among five of the six BOP regions that had practitioners without

                                             23 

current privileges, practice agreements, or protocols as of June 30, 2008.
Therefore, based on documents provided by the institutions, the
certifications made by the five regions were not accurate.

National Practitioner Data Bank

       In our 2008 audit, we did not test the BOP’s use of the National
Practitioner Data Bank (NPDB) for monitoring its health care providers. The
BOP’s Program Statement on Health Care Provider Credential Verification,
Privileges, and Practice Agreement Program requires the BOP to participate
in the NPDB, which is operated by the Department of Health and Human
Services (HHS). The BOP participates in the NPDB through an inter-agency
agreement with the HHS. For each health care provider, the BOP is required
to query the NPDB at initial appointment, and no less than once every 2
years thereafter to identify adverse actions by its health care providers. The
BOP’s policy requires institutions to maintain copies of the NPDB results in
the credential portfolio for each practitioner.

     In our survey questionnaire sent to the 93 BOP institution locations,
we asked the following question related to the NPDB.

      Has the BOP obtained a NPDB report (initial report if newly 

      hired or required every-2-year report) on each health care 

      provider practicing at your institution as of November 20, 

      2009?


      Of the 93 institution locations, 87 answered “Yes” and 6 answered
“No.” For the institution officials answering “Yes,” we asked them to submit
the date and copy of the latest NPDB report for each practitioner as
applicable. Based on the data and support documentation submitted by the
BOP institution officials, we performed an analysis to determine if the NPDB
report on each health care provider was current. In our analysis we
considered a NPDB Report dated after November 19, 2007, to be current
because it was within 2 years of when we sent out the survey on
November 20, 2009. If the NPDB Report date was blank, we considered it
not current because the BOP did not indicate one had been done. If the
NPDB Report date was before November 20, 2007, we considered it not




                                     24 

current because it was not within 2 years of when we sent the survey out on
November 20, 2009.12

      Our analysis showed that the BOP had obtained current NPDB reports
for 1,938 (96 percent) of the 2,010 health care providers who required one.
For the 72 practitioners without current reports, documentation submitted
by the institutions showed that:

       	 NPDB reports obtained for 24 practitioners were more than 2 years
          old, and

       	 the institution either did not provide a date of the last NPDB report
          obtained or did not submit documentation to show that an NPDB
          report had been obtained for 48 practitioners.

       We asked the institutions why an NPDB report was not obtained. Only
3 of the 34 institutions that had not obtained current NPDB reports for some
of its practitioners provided an explanation for not obtaining the report. The
three responses were:

       	 The report has not been obtained because of a delay in obtaining
          needed information from the practitioner to perform the report
          query.

       	 The report is pending. An NPDB report was obtained but contained
          erroneous information.

       	 The report was not obtained. Instead, the institution relied on a
          letter from the contractor stating that the report query was done.

      We also noted that none of the BOP’s 66 program reviews identified an
issue with the NPDB reports not being current. For 22 of the 34 locations
where we found NPDB reports that were not current, the non-current NPDB
reports existed at the time of the program reviews at these locations, but
were not detected by the program reviews.

     While the BOP had a 96 percent compliance rate with conducting the
NPDB report on its practitioners, it is important that the BOP obtain the
NPDB reports for all health care providers who require the NPDB report. The
NPDB provides insight into the professional competence or conduct of an
       12
            If the institution officials provided a date that was different from the date on the
supporting documentation, then we used the date on the supporting documentation. If the
officials provided a date but no supporting documentation, we did not count the report as
obtained by the BOP because no support was provided.

                                               25 

individual regarding suitability for appointment by the BOP. Adverse actions
identified by the NPDB reports include: (1) malpractice payments made for
the benefit of physicians, dentists, and other health care practitioners;
(2) licensure actions taken by state medical boards and state boards of
dentistry against physicians and dentists; (3) professional review actions
primarily taken against physicians and dentists by hospitals and other health
care entities, including health maintenance organizations, group
practices, and professional societies; and (4) drug-related actions taken by
the Drug Enforcement Administration. If the BOP does not obtain current
NPDB reports for all its practitioners, it may not identify adverse actions
against its practitioner and the BOP risks employing practitioners that are
not suitable for providing proper health care for BOP inmates.

Conclusion

       Our 2008 audit found significant numbers of BOP health care providers
who were operating without current privileges, practice agreements, or
protocols, as applicable. The audit also found significant numbers of BOP
health care providers who had not received a current peer review.
Subsequent to that audit, the BOP took the following actions to help ensure
its practitioners have current privileges, practice agreements, protocols, and
peer reviews.

      	 The BOP issued guidance to its wardens and clinical directors
         reiterating policy requirements that all health care providers have
         privileges, practice agreements, and protocols in place.

      	 The BOP verified privileges, practice agreements, and protocols on
         site through health services program reviews, Regional Medical
         Director and Regional Health Service Administrator visits, and
         Clinical Director peer reviews.

      	 The BOP required all clinical directors provide assurance to their
         respective Regional Medical Director by June 30, 2008, that their
         clinicians had privileges, practice agreements, or protocols in place.

      	 The BOP issued guidance to its wardens and clinical directors
         explaining that all health care providers who are privileged must
         have at least one external peer review conducted every 2 years.
         The guidance also reiterated that providers working under practice
         agreements must have a peer review conducted at least every 2
         years by a peer at the facility. The guidance also stated that the
         Regional Medical Directors would conduct external peer reviews for


                                      26 

         all licensed independent practitioners in conjunction with the
         scheduled Clinical Director peer reviews.

       This follow-up audit found that, as a result of the BOP’s actions, BOP
institutions had significantly reduced the number of health care providers
without current privileges, practice agreements, protocols, and peer reviews.
However, the BOP needs to take additional actions to ensure full compliance
with the credentialing guidelines for all its health care providers.

       To further improve its credentialing and peer review processes, the
BOP is revising its Program Statement on Health Care Provider Credential
Verification, Privileges, and Practice Agreement Program to ensure the
requirements of the program are clear to its staff. However, the revised
Program Statement is not expected to be published until FY 2012.
Consequently, we believe that the BOP should take interim steps to improve
its processes until the revised Program Statement is published.

       Allowing practitioners to provide medical care to inmates without
current privileges, practice agreements, or protocols increases the risk that
the practitioners may provide medical services without having the
qualifications, knowledge, skills, and experience necessary to correctly
perform the services. In addition, the BOP could be subjected to liability
claims by inmates if improper medical services are provided by these
practitioners.

      In addition to having some practitioners without current privileges,
practice agreements, protocols, and peer reviews, we also found that the
BOP institutions did not maintain current NPDB reports for about 4 percent
of their practitioners. The NPDB reports identify whether or not a
practitioner has received any adverse actions. Failure to obtain the NPDB
reports for all practitioners places the BOP at risk of employing practitioners
who are not suitable for providing proper health care for BOP inmates.

Recommendations

We recommend that the BOP:

   1. Issue interim guidance to institution officials clarifying the term
      privilege and explaining that practice agreements and protocols should
      not be identified as privilege granting documents.




                                      27 

2. Issue interim guidance to institution officials clarifying the type
   authorization (privileges, practice agreements, and protocols) that
   each type practitioner should receive to ensure that the practitioners
   receive the correct type of authorizing document.

3. Issue interim guidance to institution officials clarifying the use of
   protocols in medical centers or other BOP facilities where licensed
   independent practitioners are on duty 24 hours a day to supervise
   non-independent practitioners.

4. Issue interim guidance to institution officials clarifying the type of
   documentation that should be maintained in the practitioner
   credentials portfolio to support the completion of peer reviews for
   contracted health care providers.

5. Issue interim guidance to institution officials reiterating the
   requirement to query the National Practitioner Data Bank for each
   practitioner at initial appointment, and at least once every 2 years
   thereafter to identify adverse actions against the practitioners.

6. Ensure that the revised Program Statement on Health Care Provider
   Credential Verification, Privileges, and Practice Agreement Program
   incorporates the interim guidance established as a result of
   Recommendations 1 through 5.

7. Reevaluate the program review steps used to asses compliance with
   the requirements of the BOP’s Program Statement on Health Care
   Provider Credential Verification, Privileges, and Practice Agreement
   Program to help ensure the program reviews identify:

      	 practitioners without current privileges, practice agreements,
         protocols, peer reviews, and NPDB reports; and

      	 institutions that inappropriately certified compliance with the
         requirements of the program statement.




                                    28 

                    STATEMENT ON COMPLIANCE WITH 

                        LAWS AND REGULATIONS 


      As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objective, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that the
BOP’s management complied with federal laws and regulations for which
noncompliance, in our judgment, could have a material effect on the results
of our audit. The BOP’s management is responsible for ensuring compliance
with federal laws and regulations applicable to the BOP. In planning our
audit, we identified the following laws and regulations that concerned the
operations of the auditee and that were significant within the context of the
audit objective.

       	 U.S. Constitution’s Eighth Amendment 
           
       	 45 C.F.R. PART 60 – National Practitioner Data Bank for Adverse
          Information on Physicians and Other Health Care Practitioners
           
       In the United States Supreme Court case, Estelle v. Gamble, the U.S.
Supreme Court concluded that an inmate’s right to medical care is protected
by the U.S. Constitution’s Eighth Amendment guarantee against cruel and
unusual punishment.13 The U.S. Supreme Court concluded that “deliberate
indifference” – purposefully ignoring serious medical needs of prisoners –
constitutes the inappropriate and wrongful infliction of pain that the Eighth
Amendment forbids. The BOP has implemented multiple guidelines in the
form of Program Statements to help it ensure inmates are houses in a safe
and humane manner. We tested BOP guidelines in the following Program
Statements.
           
       	 BOP’s Program Statement P6027.01 on Health Care Provider
          Credential Verification, Privileges, and Practice Agreement Program. 
           
       	 BOP Program Statement P1210.23 on Management Control and
          Program Review Manual.

      	 BOP Program Statement P6010.02, Health Services Administration.

      Our audit included examining, on a test basis, the BOP’s compliance
with the aforementioned laws, regulations, and implementing Program

      13	
            Estelle v. Gamble, 429 U.S. 97, 97 S. Ct. 285, 50 L. Ed. 2d 251 (1976).


                                              29 

Statements that could have a material effect on the BOP’s operations,
through obtaining BOP official’s responses to our survey questionnaire,
interviewing BOP management officials, and analyzing the survey responses.
As noted in the Finding and Recommendations section of this report, we
found that the BOP substantially complied with the laws, regulations, and
Program Statements cited above, but could make improvements to ensure
that all its health care providers had current privileges, practice agreements,
protocols, peer reviews, and NPDB reports, as applicable.




                                      30 

              STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards we tested as
appropriate, internal controls significant within the context of our audit
objective. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of the BOP’s internal controls was
not made for the purpose of providing assurance on its internal control
structure as a whole. The BOP’s management is responsible for the
establishment and maintenance of internal controls.

        As noted in the Finding and Recommendations section of this report,
we identified deficiencies in the BOP’s internal controls that are significant
within the context of the audit objective and based upon the audit work
performed that we believe adversely affects the BOP’s ability to ensure that
all its health care providers have current privileges, practice agreements,
protocols, peer reviews, and NPDB reports, as applicable.

      Because we are not expressing an opinion on the BOP’s internal
control structure as a whole, this statement is intended solely for the
information and use of the auditee. This restriction is not intended to limit
the distribution of this report, which is a matter of public record.




                                      31 

                      ABBREVIATIONS


BOP      Federal Bureau of Prisons
FCI      Federal Correctional Institution
FDC      Federal Detention Center
FMC      Federal Medical Center
FPC      Federal Prison Camp
FSL      Federal Satellite Low
FTC      Federal Transfer Center
FY       Fiscal Year
HHS      Department of Health and Human Services
JCAHO    Joint Commission on Accreditation of Healthcare Organizations
MCC      Metropolitan Correctional Center
MDC      Metropolitan Detention Center
MED      Medium Security
N/A      Not Applicable
NPDB     National Practitioner Data Bank
OIG      Office of the Inspector General
USMCFP   United States Medical Center for Federal Prisoners
USP      United States Penitentiary




                               32 

                                                              APPENDIX I

           Audit Objectives, Scope, and Methodology

Objectives

      The objective of this audit was to determine whether the BOP
established and updated privileges, practice agreements, or protocols for all
practitioners as applicable; and established current peer reviews of all
providers as required.

Scope and Methodology

       We performed the audit in accordance with Government Auditing
Standards and included tests and procedures necessary to accomplish the
objectives. We performed the audit from October 26, 2009, to
February 24, 2010. We conducted fieldwork at the BOP headquarters in
Washington, D.C. We also obtained data from all 93 BOP institution
locations through the use of a survey questionnaire discussed below.

      To determine whether the BOP established and updated its medical
services providers’ privileges, practice agreements, or protocols we:

      	 surveyed all 115 BOP institutions at 93 locations through a
         questionnaire to determine if current privileges, practice
         agreements, and protocols were maintained for each health care
         practitioner, as applicable;

      	 evaluated the BOP’s process for verifying and certifying that health
         care providers’ credentials were current;

      	 assessed whether the BOP’s Program Review process for monitoring
         its health care providers is capable of detecting deficiencies in
         practitioners’ credentials at the institutions.

       To determine whether the BOP established current peer reviews for all
its providers, we surveyed all 115 BOP institutions at 93 locations through a
questionnaire to determine if current peer reviews were maintained for each
health care practitioner, as applicable.

      In addition, we also used the survey questionnaire to determine if the
BOP queried the National Practitioner Data Bank to identify adverse actions
against its medical service providers.

                                     33 

                                                                          APPENDIX II

                 BOP Institutions and Inmates Housed
                        As of March 25, 201014
                           Institution                   State      Inmates
              1. ALDERSON FPC                              WV            1,110
              2. ALLENWOOD LOW FCI                         PA            1,402
              3. ALLENWOOD MEDIUM
                                                           PA            1,444
                 SECURITY (MED) FCI
              4. ALLENWOOD USP                             PA            1,049
              5. ASHLAND FCI                               KY            1,251
                 ASHLAND-CAMP                              KY              297
              6. ATLANTA USP                               GA            1,920
                 ATLANTA-CAMP                              GA              480
              7. ATWATER USP                               CA            1,146
                 ATWATER-CAMP                              CA              117
              8. BASTROP FCI                               TX            1,352
                 BASTROP-CAMP                              TX              179
              9. BEAUMONT LOW FCI                          TX            1,955
              10. BEAUMONT MED FCI                         TX            1,632
              11. BEAUMONT USP                             TX            1,490
                   BEAUMONT USP-CAMP                       TX              527
              12. BECKLEY FCI                              WV            1,814
                   BECKLEY-CAMP                            WV              404
              13. BENNETTSVILLE FCI                        SC            1,630
                   BENNETTSVILLE-CAMP                      SC              118
              14. BIG SANDY USP                            KY            1,473
                   BIG SANDY-CAMP                          KY              107
              15. BIG SPRING FCI                           TX            1,569
                   BIG SPRING-CAMP                         TX              160
              16. BROOKLYN MDC                             NY            2,624

       14
          As of March 25, 2010, the BOP housed an additional 38,279 inmates in privately
managed, contracted, or other facilities. Some BOP locations incorporate more than one
BOP institution. For instance, the BOP has two facilities at its Ashland, Kentucky, location –
Ashland FCI and Ashland-CAMP.

                                             34
         Institution           State   Inmates
17. BRYAN FPC                   TX         849
18. BUTNER FMC                  NC         986
19. BUTNER LOW FCI              NC        1,443
20. BUTNER MED I FCI            NC         772
   BUTNER-CAMP                  NC         317
21. BUTNER MED II FCI           NC        1,583
22. CANAAN USP                  PA        1,441
   CANAAN-CAMP                  PA         128
23. CARSWELL FMC                TX        1,393
   CARSWELL-CAMP                TX         229
24. CHICAGO MCC                 IL         627
25. COLEMAN I USP               FL        1,538
26. COLEMAN II USP              FL        1,536
27. COLEMAN LOW FCI             FL        1,899
28. COLEMAN MED FCI             FL        1,771
   COLEMAN MED FCI-CAMP         FL         447
29. CUMBERLAND FCI              MD        1,237
   CUMBERLAND-CAMP              MD         261
30. DANBURY FCI                 CT        1,117
   DANBURY-CAMP                 CT         223
31. DEVENS FMC                  MA        1,050
   DEVENS-CAMP                  MA         114
32. DUBLIN FCI                  CA        1,107
   DUBLIN-CAMP                  CA         296
33. DULUTH FPC                  MN         881
34. EDGEFIELD FCI               SC        1,616
   EDGEFIELD-CAMP               SC         463
35. EL RENO FCI                 OK        1,202
   EL RENO-CAMP                 OK         273
36. ELKTON FCI                  OH        1,884
   ELKTON-FSL                   OH         587
37. ENGLEWOOD FCI               CP         960


                        35 

          Institution          State   Inmates
   ENGLEWOOD-CAMP               CO         171
38. ESTILL FCI                  SC        1,144
   ESTILL-CAMP                  SC         301
39. FAIRTON FCI                 NJ        1,419
   FAIRTON-CAMP                 NJ         112
40. FLORENCE ADMAX USP          CO         438
   FLORENCE USP-CAMP            CO         531
41. FLORENCE FCI                CO        1,218
42. FLORENCE HIGH USP           CO         944
43. FORREST CITY FCI            AR        1,943
   FORREST CITY FCI-CAMP        AR         311
44. FORREST CITY MED FCI        AR        1,540
45. FORT DIX FCI                NJ        4,195
   FORT DIX-CAMP                NJ         384
46. FORT WORTH FCI              TX        1,764
47. GILMER FCI                 WV         1,671
   GILMER-CAMP                 WV          123
48. GREENVILLE FCI              IL        1,245
   GREENVILLE-CAMP              IL         277
49. GUAYNABO MDC                PR        1,416
50. HAZELTON USP               WV         1,434
   HAZELTON-CAMP               WV          116
   HAZELTON-FEMALE CAMP        WV          447
51. HERLONG FCI                 CA        1,472
   HERLONG-CAMP                 CA         111
52. HONOLULU FDC                HI         774
53. HOUSTON FDC                 TX         886
54. JESUP FCI                   GA        1,205
   JESUP-CAMP                   GA         155
   JESUP-FSL                    GA         578




                        36 

         Institution          State   Inmates
55. LA TUNA FCI                TX        1,184
   LA TUNA-CAMP                TX         297
   LA TUNA-FSL (EL PASO)       TX         471
56. LEAVENWORTH USP            KS        1,623
   LEAVENWORTH-CAMP            KS         420
57. LEE USP                    VA        1,495
   LEE USP-CAMP                VA         125
58. LEWISBURG USP              PA        1,224
   LEWISBURG-CAMP              PA         541
59. LEXINGTON FMC              KY        1,745
   LEXINGTON-CAMP              KY         293
60. LOMPOC FCI                 CA        1,397
61. LOMPOC USP                 CA        1,488
   LOMPOC USP-CAMP             CA         473
62. LORETTO FCI                PA        1,286
   LORETTO-CAMP                PA         143
63. LOS ANGELES MDC            CA        1,018
64. MANCHESTER FCI             KY        1,205
   MANCHESTER-CAMP             KY         444
65. MARIANNA FCI               FL        1,208
   MARIANNA-CAMP               FL         284
66. MARION USP                 IL        1,001
   MARION-CAMP                 IL         278
67. MCCREARY USP               KY        1,533
   MCCREARY-CAMP               KY         128
68. MCKEAN FCI                 PA        1,236
   MCKEAN-CAMP                 PA         268
69. MEMPHIS FCI                TN        1,404
   MEMPHIS-CAMP                TN         274
70. MIAMI FCI                  FL        1,126
   MIAMI FCI-CAMP              FL         333
71. MIAMI FDC                  FL        1,581


                       37 

          Institution          State   Inmates
72. MILAN FCI                   MI        1,560
73. MONTGOMERY FPC              AL         923
74. MORGANTOWN FCI             WV         1,251
75. NEW YORK MCC                NY         781
76. OAKDALE FCI                 LA        1,445
77. OAKDALE FDC                 LA         842
   OAKDALE FDC-CAMP             LA         139
78. OKLAHOMA CITY FTC           OK        1,532
79. OTISVILLE FCI               NY        1,156
   OTISVILLE-CAMP               NY         111
80. OXFORD FCI                  WI        1,098
   OXFORD-CAMP                  WI         193
81. PEKIN FCI                   IL        1,239
   PEKIN-CAMP                   IL         307
82. PENSACOLA FPC               FL         660
83. PETERSBURG FCI              VA        1,159
   PETERSBURG FCI-CAMP          VA         333
84. PETERSBURG MED FCI          VA        2,011
85. PHILADELPHIA FDC            PA        1,028
86. PHOENIX FCI                 AZ        1,015
   PHOENIX-CAMP                 AZ         274
87. POLLOCK MED FCI             LA         888
88. POLLOCK USP                 LA        1,418
   POLLOCK-CAMP                 LA         230
89. RAY BROOK FCI               NY        1,236
90. ROCHESTER FMC              MN          958
91. SAFFORD FCI                 AZ        1,300
92. SAN DIEGO MCC               CA        1,107
93. SANDSTONE FCI               MN        1,385
94. SCHUYLKILL FCI              PA        1,203
   SCHUYLKILL-CAMP              PA         299




                        38 

         Institution           State   Inmates
95. SEAGOVILLE FCI              TX        1,860
   SEAGOVILLE-CAMP              TX         157
96. SEATAC FDC                 WA          817
97. SHERIDAN FCI                OR        1,272
   SHERIDAN-CAMP                OR         474
98. SPRINGFIELD USMCFP         MO         1,138
99. TALLADEGA FCI               AL         983
   TALLADEGA-CAMP               AL         345
100. TALLAHASSEE FCI            FL        1,201
101. TERMINAL ISLAND FCI        CA        1,020
102. TERRE HAUTE FCI            IN        1,164
    TERRE HAUTE FCI-CAMP        IN         343
103. TERRE HAUTE USP            IN        1,763
104. TEXARKANA FCI              TX        1,365
    TEXARKANA-CAMP              TX         328
105. THREE RIVERS FCI           TX        1,187
    THREE RIVERS-CAMP           TX         384
106. TUCSON FCI                 AZ         758
107. TUCSON USP                 AZ        1,036
    TUCSON-CAMP                 AZ         125
108. VICTORVILLE MED I FCI      CA        1,472
109. VICTORVILLE MED II FCI     CA        1,474
    VICTORVILLE MED II-CAMP     CA         263
110. VICTORVILLE USP            CA        1,526
111. WASECA FCI                MN         1,066
112. WILLIAMSBURG FCI           SC        1,608
    WILLIAMSBURG-CAMP           SC         126
113. YANKTON FPC                SD         832
114. YAZOO CITY FCI             MS        1,839
    YAZOO-CAMP                  MS         135
115. YAZOO CITY MED FCI         MS        1,632
 Total Inmates                         172,105


                        39 

                                                             APPENDIX III

     OIG Survey Questionnaire Sent to BOP Institutions

  FOLLOW-UP ON THE FEDERAL BUREAU OF PRISON’S EFFORTS TO
               MANAGE INMATE HEALTH CARE

               INSTITUTION HEALTH CARE QUESTIONNAIRE

    If your facility is part of a Federal Corrections Complex (FCC), or is a
    camp located within an institution, please combine and submit only one
    questionnaire.

GENERAL INFORMATION

1. Institution Name(s): ____________________________

2. a. 	 Part of a Federal Correctional Complex (FCC)?

            YES         NO

  b. 	 If answer is YES, please provide the FCC Name:
_________________________

3. Name of Warden: ___________________________

4. a. 	 Name of Health Services Administrator
   (HSA):___________________________

   b. HSA’s Phone # _________________

5. Name of Clinical Director (CD): ______________________________


MONITORING HEALTH CARE PROVIDERS

When answering questions 6 through 11 please consider everyone (BOP
employees, PHS employees working for BOP, and contract providers) who,
as of November 20, 2009, was practicing health care inside your institution,
or who was providing a diagnosis or recommending treatment using tele-
health, including all physicians; dentists; mid-level practitioners (MLP); other
licensed independent practitioners (LIP), including contract/consultants; and
other health care providers, such as clinical nurses, emergency medical


                                      40 

technicians, or any others that a local governing body deems appropriate for
needing privileges, practice agreements, or protocols.

6. Has BOP performed any documented evaluations (staff assistance visits,
   peer reviews, program reviews, or any other reviews) of your health care
   providers (either through contract or in-house) since the beginning of
   October 1, 2007?

            YES         NO          N/A

   If answer is YES, please provide a copy of the evaluations performed.

7. Do all health care providers practicing at your institution as of November
   20, 2009, possess current privileges, practice agreements, or protocols?

             YES        NO

   If answer is NO, please provide documentation of the reason the provider
   does not
   possess a current privilege, practice agreement, or protocol.

8. Has the BOP obtained a National Practitioner Data Bank (NPDB) report
   (initial report if newly hired or required every-two-year report) on each
   health care provider practicing at your institution as of November 20,
   2009?

            YES         NO

   If answer is NO, please provide documentation of the reason why such
   reports were not obtained.

9. Has your institution received any adverse reports from the National
   Practitioner Data Bank on any health care providers practicing at your
   institution as of November 20, 2009?

            YES         NO

10. Did you provide assurance to your Regional Medical Director by June 30,
    2008, stating that your institution is in compliance with the June 4,
    2008, directive requiring that all clinicians have privileges, practice
    agreements, or protocols in place to practice medicine?

            YES         NO          N/A


                                      41 

   If answer is YES, please provide a copy of documentation provided to the
   Regional Medical Director assuring institution’s compliance. If answer is
   NO, or NA, please explain.

Please complete the attached Excel spreadsheet. For each practitioner you
list on the attachment please provide a copy of the last documents in each of
the following categories: peer review, privilege granting document, practice
agreement, protocol document, and National Practitioner Data Bank report,
as applicable. For contract providers, you do not need to provide a copy of
the last peer review if it is not maintained at your institution. Instead, as
required by BOP Program Statement P6027.01, please provide the evidence
maintained at the institution to show the last peer review was completed.

Attachment




                                     42 

                                                                                                                 Attachment


Institution Name(s)*:
_______________________________________________________
*If part of an FCC, or a camp located within an institution, please combine and submit only one
questionnaire.

Please complete this Excel spreadsheet for everyone (BOP employees, PHS employees working for BOP,
and contract providers) who, as of November 20, 2009, was practicing health care inside your
institution, or who was providing a diagnosis or recommending treatment using tele-health, including all
physicians; dentists; mid-level practitioners (MLP); other licensed independent practitioners (LIP),
including contract/consultants; and other health care providers, such as clinical nurses, emergency
medical technicians, or any others that a local governing body deems appropriate for needing
privileges, practice agreements, or protocols.

For each practitioner you list, please provide a copy of the last document in each of the following
categories: peer review, privileges granting document, practice agreement, protocol document, and
National Practitioner Data Bank report, as applicable. For contract providers, you do not need to provide a
copy of the last peer review if it is not maintained at your institution. Instead, as required by BOP Program
Statement P6027.01, please provide the evidence maintained at the institution to show the last peer
review was completed. Please use additional lines as needed.


                                                                                                                  Date of Last
  Practitioner                                                                                                      National
Type (Physician,                     Date BOP        Date of       Date of Last   Date of Last    Date of Last    Practitioner
 Dentist, MLP,      Practitioner    Employment      Last Peer       Privilege      Practice         Protocol       Data Bank
   LIP, etc.)          Name           Began1         Review         Document      Agreement        Document          Report
    Position




1
 For BOP employees, this should be the date the employee was hired by the BOP. For PHS employees, this should be the date the
employee began his or her duty assignment with the BOP. For contract providers this should be the date the contract providers




                                                              43
                                             44 

          -PT~I o~~U01~1~jo~d ~u~puod~PU1_UOU o~ o~6~11Al~d ~nooT ~OU op
         (onSH) .~lun .~j'''"'~S tlHUH . (UI'l1 U~UOllPjUd "u~puod~PUI
              p~.u~j,'l ~o. AT~TO. p~" •• , ~~ • • ~E~tlAl~d '.4~ .~.ou~P PUV
         .Et"E~H"p d ...... a" atp nHPvp "VII' (003:»      O~ajlHO ~"pnj"XS
         l ~lll:> uOl,n'l~.UT 0, wnpU.'OW~ ajU VP 1"E ~T~a.ul uo pa •• v~p ••11
       pUV    U01'.PU~ja>    0,11' 1I'1~ .~~~Ev nv~>n9 ~~ , •• uod •• ~ t"!'JUI
                                                               o,u~njOp EU1,uo~E ~E~ll.,,~d
              O. P"lll'U~Pl aq 'ou Plnoll" 0IOjO,o, d PUV ."u~a"'E. ajT,jw,d
                'Oil' 6ululVld ~ ~ pUO ~E~llAl'd ,"-,a, ~II~ EulAJ1>vlj OI.ljl~JO
                  uopn,pou, 0, aju vPln6 '"P~'U' anur 'tt tKlP"*"u...."j.~
                                                                             , uoq~UiOOa»t>j'"
       I V" P l"lpUl   q~va   0, aouodoa,      o."v~'''B       all. pa.oll MOtaq PU1, a ••"ld
                                       ·a,.~ IIllvaH ,,'VWU! ~E.u. ~ 0, .~~O"3
       ,ouool'd JO nva'''a I V'''P~~ alll    'lP"Y d".MOltO~ P"!'l,ua ~~od~~
                                                     ,0
           llpnv 'JV'P o,~IO ~4' WO>J ouo"epU~ja, "Ill 0, puod.", pu.
         uo ~uawwoj 0, A'Tun"oddo ~4~ .~~v ,j ~ ~ddv OUOO"d JO noa,na "ilL
                                                      ~'v:> 4'1.~ H       ""vwuI
                ~Evuv ~ 0, .'~OJ13 , ouOot'd J O n.a,na Tv~apad
        "4, ,0    lI P" V dn -~ olto~ " ,od~~ "pny 'J.'O (~IO)
               . , I.,au~   ,0,jadouI JO ajTJ}O wql 01               ".uod.a~            ' J.;lsrons
                                                                                              :WOHd
                              3IT~;':~ol;r
                                'lYllSN30     ~0J.:l3dS /l I   31!.L dO   VI ~ ~O
                         LIOflY MOd 'lYKSNaO M0L:l3dSNI ~LS!SSY
                                              .L!IOflY!la: ' r' <lNOtoIAYli MOd      ~aNYlI0H3~
                               OtO~   ' 61   ~u"r'
                                KM> .... _       .                                  -.w .. _ ....... ,
                esponse to the Draft Au
          OP’s Re
     The BO                                  port
                                      udit Rep
       X IV
  PENDIX
APP
Level Practitioners (MLPs) , nurse ., t e chnician., etc.) . The
gu idance memorandum al.o Indicote. that Health Services
Admini st rators IHSAa) are re s pons ible for developing and
Impleme nting I nte rna l policies . procedures , and a system of
monitor i~ to aaaura that all ~mploy~d a nd contracted ~IFa who
deliver se rvlcea . I th ln the In . t i t ution are issued pr ivll@ges
biennially. While the pro iect~ date for di.semlnation of the
guida nce memorandum is July 1, 2010 . an in _person training will
be conducted with all Bureau HSAs on June lO, 2010 , at the
Uational Cl i n i cal Director (CO:/ HSA Conferencft .

R . c ~n d . t l o B '2 , I s.ue Interim guidance to in s t itution
official. clari f ying the type authorization Iprivil@gea , practice
agre ement s , and protocol s) that each type pract itioner ehould
recei ve to ensure that the practitioner s r e ceive the corre ct type
of authorizing docu~n t .

I nitial R.SpoD • • , The Bureau ogre e . with this recommendation and
ha. dratted an I nteriM guidance ~MOrandum to in . ~itutlon CEO.
t hat def i ne. non· Inde pendent pra ctit ioner. a . a mid - level
pr acti t ioner or HLP (I . e., a phy. ician a •• iatant, nur ••
practitioner, unlicensed t oreign medical gra duate), nurae , or
technici an (pa ramed lc/EMT, laboratory , rad iol ogy , medical,
dental) _ The guidance further .peel fies that HSU. i .. ue
· pract lce agreeme nt. - fo r HLP. and develop protocol s f or nurae.
"nd technid,,~ a . "~"a ar" rupo~ . i"l. t "r d.eveloping. and
Imple~nting internal pelieie • . procedurea, and a .y.teM of
monitoring to a .s ure that all employed and contracted MLP o who
d e l i ver •• rviceo within the in.tltutlon a r e l asued a pra ct i ce
agreement biennially, and nur ..a and t e chnici a ns a re .s.ued
protocol s that the HSU lea der . ~vie w and revl .e a nnually . Wh ile
the projected date tor di ssemination of the gUidance memo la
July I , 2010, an in-peroon training wi l l be conducte d with all
Bureau H5As on June ]0 , 2010. at the ~ationa l CD/HSA Conference.
R.coam.Bd.atlon I }, I.sue interim guidance to I nstitution
offici als clarifying the us. 01 protocol_ In medical Centers or
other Bureau facilities whe r e licen.ed i nde pendent pract itionera
are on duty 24 hour. a d ay to . upervi se non_independent
practitioner..

Inltl. l a • • poB•• , The Bure au ag rees with this ~cornmendatlon and
has drafted an interim guidance memor .ndu~ to In.tltution CEOs
atating that P602?OI requires clinical nur .... ,
paramedlca/emergency medical techn ician. , and a ny other
clinici ans wh ich. local governing body deems a ppropriate, to
prac~ ice i n accQrdance wi th tho ins ti t ution' s LIP_approved
                                   ,




                                     45 

(phyoician or dentist) protoco: s when deli vering health Care.
The pre s ence of an LIP on site does not super.ede the requirement
to have ~ritten nur.ing or technician protocols tn.t .t.ndardi~e
clinical practice for all ernploy~ and contracted non· independent
nur s e s and techniciane . eepeci*lly protOCOle related to medical
emetgency re s ponoe . The Bureau' . Chief Nuree and ~edical
Re f e rral Center Director. of Nuraing convened in May 2010 to
coordinate the de velo~nt of evide nce-based national nursi ng
protocols; ho~ver, until national protocol s are publiahed (2011
or ,0.21, CEO. an <llnc t e<l t<> ' '''vo: )!St). c<>ntlnue t<> u.e o:xh tl ,..
LIP. approved protocola to guide local practice. Wh ile the
projacte<l <late for di ssemina tion of the guidance memorsndum I.
July 1 . 2010 ... n in penon tn,ning will be con<lucte<l wHh d l
Bureau HS~ on June 30. 2010 . • t the N.tional CD/HSA conference.

R.command.tion , 4 , Is.ue interim guidance to institution
ot t icial s clarifying the type of documentation that should be
maintained in the pr.ctitione~ cre~entiale portfoliO to .uppo~t
the completion of peer ~evlew . f or contracte<l health ca re
p~ovl<le . . .


Initial R.opon•• , The Bure au .gree. ~ith thi . ~ecommendation and
hae dra t ted an int~rim guidance memorandum to Inatitution CEO.
explaining that PS027.01. perm't . inotitutions that contract with
LIPs wor~ing in a Joint Commi • • ion accre<lite<l hoopital or group
practice t o est abl ioh an agree~nt that the hoopital or group
practice conduct . the ~r rev,ew. However. past Bureau practice
has shown that thi s proxy peer review ha. gene ra l ly not
approximated the neces.ary e vidence of a medical recor<i r e view
and/or <lirect oboe rva tlon of t echnical e~lll o required for pee~
review ot an employe<l Bureau L:P. Although the Bure au 10 in the
process of ~evi s ing P6027.01 to require more substantive peer
r e view criteri a in a a tandardlte<l temphte (publ.icat i on projected
for 201 2), the innHutl0n'e H$U ""et continue to conduct peer
review. of ite contracted LIP. Internally by ~cord review,
collabora tively with ita contr.ct facilltie •. or through set t ing
up a separate .hort -te rM contr.ct with a peer specialist to
perform a peer a .ees.ment through • <le _i ~entifi.d medi cal record
ca.e revie w. Regardleo. of the method uoed , the dOCUmentation of
cont racto~ peer revie ws . hould approximate the biennial peer
review con<lucted for Bur. au employed LIP • • and a copy o f the
complete<l pee r review maintain.d in the respective prov ide~ · .
cre<lential portfol i o. Specific criteria i nclude s •• e •• ment of
clinical performance (e.g . . phyoi cal examination oupport . the
diagno.is a nd treatment ). use of reOOurCeO . a ppl icat ion of

                                      ,




                                       46 

                                        47 

                                               •
  w.~50~d     •• nu~ng "4' ,0 . . u"",a~'Fnb~~ aq, 'PP'            ,,~u.lldwo~    n".n
  0, paIn Ida,.        M"'A"~     w,,;60.d "4' ",vnlVA""H         'L '   uOl'.PUa.mo~ . H
                        q5nOlq. t .U01,.pu9WWO~"H 0,
                            ·s                                     "4'    .".uod.".
   Ul pau'l'no "~u.PJn6 w"a,u\ a4l a,.;~o~Ul 111M pua (ZlO ~ 10
 "'~ UO"eQTIQnd ~,~,,~~dl 'O·Lt09~ , 0 YOT"TA'"     wq, 6uT'"v.P .,
puv U01'.PU~Q'"    v '4' 4l1M ."",6. nva,ng "4L , • • uod •• H ,"" lUI
              .~    46nO'4' I     .U01'.PU~.H        )0 'In.,, • .. IV paqI114v,."
        "au.PlnS     ~1''''Ul    "4'   .",.;~ovul    we,Sold      'u~"",6y      VQ!,QI'd
    puv ·."~I'A"d 'uo"VO'l""~ 1."U"P~~ '''P1AO'd ,,; .~ q'\""H
 YO ,U""'''' . '5 WV,Go'd pa.,A'" "4' ,~, alnlUS ' 9 1 UO".pu~Q . H
                                                    '''QU'''''JUO~ VSH/~        \RUOjlVN
       "4' 'w 'OIOZ '0. "un~ UO IYSH nva.ng 11. q'!M pa,QnpuOQ ~
  Il'~ iju,U!V" uO . ;~-Ul UV ' O!O Z 'I ~lnr ., wnpu.;~"", "Qu~,n6
     "4' 10 U01'~!~".'lP ~oJ ~,. p p.'~ .~ 0.~ .~, .1 14M "IO"L!09d
  UI    pe!JI'U~P'     .~apIAo~~ a~.~       4'1 •• 4 III   ~O,   I~l~anb
                                                         aOdN a4' ,0
uOT,aldwo~ ~O'l"CW        0,     W.'S~ '   1 pul "•• ~np.~~d      " . al~llod lRU~a1ul
ua"l~ aAv4 , I nw luol,n'I'su, 11" 11 "VSH       "O'toJ'~od t."u.p",~
       84l UI petl, aq ,Inw ~anb BadN eq, JO I llnl.' a4l 10 ~do~ V
" (61-~ 1 n 6-ed "IQ"a09d an) .~n~u~ I.U01 .... 10.~ JO ..:I",," l,eql
   U'4"~ a,.~ ,aAllap 0, ~l,~oq,n. pa,u.l6 _a,.,1 '''4,0 lO .SU"~ll
   '1"41 uo ,,,oll"lll"" ou ", • •,eq, '14' .I n .... 0, I n"~ ~ ~"A"
~Il".nb"oqnl pu. ,,,aw'''Iod~1 11"1"1 10 awl' "41 , . Il""Ol'I'''"l~
   ~ '"~ 4111~4 III uo ~anb laadNI ~uoa IlIa ~"UOll"'V'~ IIUO l llN
          v ,:>npuo:> 0, l"o"n",lu, nv .. ,na II" " .. "nba~ ~:>llod "41
      loa~UO!ln,!"ul Ol wnp".~owaw a~uvPln5 ~!'.'U! ul palll'p "4
P""    UO!,.pu~"'"          411~ .a..
                          "'4'         n •• ,na"~ ,,"aod", ~ 11"IUI
                                             ,5.
                   " l ,aUOI "' ''"'~ "4' , I U,161 l uoI'''" a l ' '' ''p ' Al"""P!
          01 ,a'JI.,a4' .~ . aA ~ ~aAa a:> "O llvat 11 pUI ",uawlulod~v
             1"'l"1 II lauO""O.l~ 40'a lOJ ~U.B ,,10 laUO"ll~I'~
         l"uo"vN "4' ~"nb 0, ,uaw""nb", a4' 5Ul' "'.'l"~ ' 1 "~' JJO
           uOl l n'Ill"I Ol ~~u~ln 6 wI''''u, "n.IJ 'S' UOTl'PU~~ • •
                                          - a~ " a'a }uo~ YSH/~ tlUOI'VN
        .4' lV '010~ 'O( .un~ uo .YSH n .~ ,nB tIv 41T ~ pa,'npuo~ eq
   It'~ 5ulu"~1 uO.,ad_Ul ". "OIO! "I ~Inr I, wnpuv~owam a~uvPln5
  "4' 10 UOI'VU,w~'.lP lO, ~"P P~l".~0.~ eq, .II4M " . ~I' nl.,nB
  p~otdma ~oJ p~,~npuo~ A aJA~~ ~aed Q4l alvwl xOld~. '141 l~a'A.~
 ,aad IVIU"~Iq a AI~ . dl' P"'~.~'''OO II" ll~l ~'n ••• 0' 6ur'Ol,UOW
       JO W., IAI • puv ' •• ~npa~~~ ' lal~J lod l"u~ a, uI 5""uawaldw!
          P'" 6uldotaAap 'OJ atq,suod.a, elv SVSH " S"od~3 ua",,~
      5u!pnt~"1     Ull~1.~4d
                          a,v, ~AIW1~~ nla~ng a4' 4"~ "OjlIO,UnwwOO
             pu v   'dn-~otlol
                           puv "'v~ 10 v•• ullaw"      ","~pnr 1""I"II~
S~at~men~   on Heal~h Care PrQvict~ r Crecten~ial V~rit\catl0n,
privilege., anct Pra~eiC~ ~reement P~r.~ to help en.~re the
progra'" ..evie... identity:

            practitioner . without current privilegea , practice
            ague"",nt a , pro~<>coh, peer revle ... , anct NPDB reporu:


      •
            '"'
            in.titution. that       inappropriately certifiect compliance
            with   ~he   r e quirement . ot the progra", .tate~ nt.

I n. , ! , l • •• pon •• , The 8ureau agreeo with thi. recommendation and
hu conducted the reevaluation of the prog ....... review atepo to
a •• ea. P6021.01 compliance by Program Review Divi a ion IPRO) and
Health Servicea D\vi a ion peraonnel during the wee~ of
May 11, ~OI0.          Program Review tea~ will continue to pull a
. ample of ten cred enti.l portfolio, for employed, contracted. and
telehealth providero in an effor t to identify LIP a nd non_
independent practitlOnero who do not meet t ha required
credentialing criteria (licen.e . profe.aionAl education. poot_
graduate education. pa.t a dvarae a ct iona tha~ r~atrict practice,
NPDS queriee, privilegee for LIP., practice agree~nt. for
M~p ./ctent.l hygieni.te/Oental a •• i.tant., protocol. for
nurae./techn icians . and peer r evie ~8 for LIPO). PRO will
phyaically revie ~ credential portfoliO. and ~;ll not 8ub.titute
an in.titution" certification of compliance in lieu of the
phy.ical review o~ portfolioo.

I t you have any queotion. regncting thie reopon ... plea.. contact
VaNun P. A<I ... "," , Au i ..... ,," Director, program Review Di v i.!.,n . at
I~O~) 616-2099.




                                      ,




                                        48 

                                                                APPENDIX V

               OFFICE OF THE INSPECTOR GENERAL 

              ANALYSIS AND SUMMARY OF ACTIONS

                NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to the BOP. The BOP’s
response is incorporated in Appendix IV of this final report. The following
provides the OIG analysis of the response and summary of actions necessary
to close the report.

1. Resolved. The BOP concurred with our recommendation to issue interim
   guidance to institution officials clarifying the term privilege and explaining
   that practice agreements and protocols should not be identified as
   privilege granting documents. The BOP plans to disseminate interim
   guidance in the form of a memorandum on July 1, 2010, and conduct in-
   person training with all Bureau Health Service Administrators on June 30,
   2010, at the National Clinical Director/Health Service Administrators
   Conference. This recommendation can be closed when we receive
   documentation that the BOP has issued the interim guidance
   memorandum and conducted the planned training.

2. Resolved. The BOP concurred with our recommendation to issue interim
   guidance to institution officials clarifying the type authorization
   (privileges, practice agreements, and protocols) that each type
   practitioner should receive to ensure the correct type of authorizing
   document. The BOP plans to disseminate interim guidance in the form of
   a memorandum on July 1, 2010, and conduct in-person training with all
   Bureau Health Service Administrators on June 30, 2010, at the National
   Clinical Director/Health Service Administrators Conference. This
   recommendation can be closed when we receive documentation that the
   BOP has issued the interim guidance memorandum and conducted the
   planned training.

3. Resolved. The BOP concurred with our recommendation to issue interim
   guidance to institution officials clarifying the use of protocols in medical
   centers or other Bureau facilities where licensed independent practitioners
   are on duty 24 hours a day to supervise non-independent practitioners.
   The BOP plans to disseminate interim guidance in the form of a
   memorandum on July 1, 2010, and conduct in-person training with all
   Bureau Health Service Administrators on June 30, 2010, at the National
   Clinical Director/Health Service Administrators Conference. This
   recommendation can be closed when we receive documentation that the

                                       49 

   BOP has issued the interim guidance memorandum and conducted the
   planned training.

4. Resolved. The BOP concurred with our recommendation to issue interim
   guidance to institution officials clarifying the type of documentation that
   should be maintained in the practitioner credentials portfolio to support
   the completion of peer reviews for contracted health care providers. The
   BOP plans to disseminate interim guidance in the form of a memorandum
   on July 1, 2010, and conduct in-person training with all Bureau Health
   Service Administrators on June 30, 2010, at the National Clinical
   Director/Health Service Administrators Conference. This recommendation
   can be closed when we receive documentation that the BOP has issued
   the interim guidance memorandum and conducted the planned training.

5. Resolved. The BOP concurred with our recommendation to issue interim
   guidance to institution officials reiterating the requirement to query the
   National Practitioner Data Bank for each practitioner at initial
   appointment, and at least once every 2 years thereafter to identify
   adverse actions against the practitioners. The BOP plans to disseminate
   interim guidance in the form of a memorandum on July 1, 2010, and
   conduct in-person training with all Bureau Health Service Administrators
   on June 30, 2010, at the National Clinical Director/Health Service
   Administrators Conference. This recommendation can be closed when we
   receive documentation that the BOP has issued the interim guidance
   memorandum and conducted the planned training.

6. Resolved. The BOP concurred with our recommendation to ensure that
   the revised Program Statement on Health Care Provider Credential
   Verification, Privileges, and Practice Agreement Program incorporates the
   interim guidance outlined in the responses to Recommendations 1
   through 5. The BOP agreed to incorporate the interim guidance outlined
   in the responses to Recommendations 1 through 5 into the revised
   Program Statement projected for publication in 2012. This
   recommendation can be closed when we receive the revised Program
   Statement on Health Care Provider Credential Verification, Privileges, and
   Practice Agreement Program.

7. Resolved. The BOP concurred with our recommendation to reevaluate
   the program review steps used to assess compliance with the
   requirements of the Bureau’s Program Statement on Health Care Provider
   Credential Verification, Privileges, and Practice Agreement Program. The
   BOP stated that it has completed its reevaluation of the program review
   steps used by the Program Review Division to assess compliance with
   P6027.01. As a result of the reevaluation, the BOP determined that

                                     50 

Program Review teams will continue to pull a sample of 10 credential
portfolios in an effort to identify practitioners who do not meet the
required credentialing criteria. However, the BOP stated that it will now
physically review credential portfolios and will no longer substitute an
institution’s certification of compliance in lieu of the physical review of
portfolios. This recommendation can be closed when we receive the
BOP’s guidance incorporating a physical review of credential portfolios by
the Program Review Division to certify compliance with the Bureau’s
Program Statement on Health Care Provider Credential Verification,
Privileges, and Practice Agreement Program.




                                   51 

